<html>
<title> - THE VIEW FROM CONGRESS: U.S. POLICY ON IRAN</title>
<body><pre>[Senate Hearing 115-768]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-768

                          THE VIEW FROM CONGRESS: 
                          U.S. POLICY ON IRAN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            MARCH 28, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-919 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Singh, Michael, Lane-Swig Senior Fellow, Managing Director, The 
  Washington Institute, Washington, DC...........................     4
    Prepared statement...........................................     6
Indyk, Hon. Martin S., Executive Vice President, The Brookings 
  Institution, Washington, DC....................................    16
    Prepared statement...........................................    18


                             (iii)        

 
                        THE VIEW FROM CONGRESS: 
                          U.S. POLICY ON IRAN

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Risch, Rubio, Gardner, Young, 
Portman, Paul, Cardin, Menendez, Shaheen, Coons, Udall, Murphy, 
Kaine, Markey, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We thank you for being here. We understand we have some 
pretty unsavory witnesses. They get highly securitized before 
they come in. We thank you for going through that and being 
with us.
    In today's hearing, we will discuss the next steps in our 
Iran policy. One of my criticisms of the JCPOA is that it would 
become our de facto Middle East policy, and Iran would expand 
their destabilizing activities. I think we are seeing a lot of 
that today.
    Regionally, we have seen an escalation in Iranian 
intervention. Iran, along with its allies in Russia, have 
continued to prop up Assad at the cost of countless lives in 
Syria. Iran's support for Shia militias in Iraq threatens the 
interests of Sunnis and Kurds alike, not to mention the Shia in 
Iraq that do not subscribe to the anti-American, zero-sum 
politics of the militias that are there.
    Iran is arming the Houthis in Yemen, who are, in turn, 
attacking our Saudi allies and targeting our ships. Yemen now 
faces a humanitarian crisis unprecedented in its history.
    Iran remains the foremost state sponsor of terrorism. It 
counts Lebanese Hezbollah, an organization that has killed 
hundreds of Americans, as among its closest allies. Iran also 
continues to detain several U.S. nationals.
    Last week, many members of this committee joined together 
in a bipartisan manner and introduced a bill to begin 
rebalancing our Iran policy. With a new administration in 
place, we have an opportunity to develop a comprehensive 
strategy to deal with both Iran's regional activities and a 
longer term threat of an Iranian nuclear weapon.
    I know both of our witnesses have spent their careers both 
in and out of government grappling with this issue, and I look 
forward to hearing your ideas. We truly thank both of you for 
being here, and I look forward to your testimony.
    With that, I will turn to my friend, Senator Ben Cardin, 
our ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, thank you very much for 
calling this hearing.
    I want to thank both of our distinguished witnesses. They 
may have had difficulty getting through security, but we are 
glad that they are here and for their expertise in this subject 
matter.
    Iran deserves special attention, and this committee can, I 
think, play a critical role. We have in the past. I think back 
about the legislation that authorized the sanctions against 
Iran for its nuclear activities. I congratulate Senator 
Menendez for his leadership on that legislation.
    It led to sanctions being imposed by the United States, and 
then with the strong diplomatic efforts of our country and 
leadership, we got other countries to join us. We were able to 
isolate Iran to a point where they felt it was in their 
interests to negotiate with us and our allies for a nuclear 
agreement.
    During that process, Mr. Chairman, under your leadership, 
we were able to bring together different views on our committee 
for the proper review of that legislation. I think, as a 
result, the agreement was stronger and the public understood 
what was going on. We had much more transparency. So I think we 
played a very important role.
    Well, we are now 15 months past the JCPOA. You and I both 
opposed that agreement. It has been in force for 15 months, and 
I strongly believe it would be against U.S. interests to 
withdraw from the JCPOA or to take any actions that could be 
interpreted to be in conflict with the JCPOA.
    Having said that, Iran's activities today are as bad as 
they have ever been, and probably worse. They are certainly 
increasing their terrorist sponsorship in the Middle East, as 
we see in so many different countries in that region. Their 
record on violating the ballistic missile obligations are well-
known, well-understood. Their human rights violations against 
their own citizens is horrible, one of the worst countries in 
the world. They violate the arms embargo. And the list goes on 
and on and on.
    So it is appropriate that this committee take a look at 
what we can do to make sure that, first, the Iran nuclear 
agreement is honored so that Iran does not become a nuclear 
weapons state. But then secondly, look at those activities that 
were not covered under the JCPOA as to how we can play a 
stronger role.
    Mr. Chairman, I particularly want to thank you and Senator 
Menendez for the work that we have done in bringing together a 
bill that we introduced this week that will, I think, 
appropriately isolate the activities that I previously 
mentioned for a stronger position for U.S. leadership among our 
allies to make sure that Iran understands: Yes, we will live up 
to the JCPOA. Yes, we believe Iran nuclear ambitions must be 
avoided. But there are other activities that are of equal 
concern, and we are going to continue to speak out and take 
action, if Iran does not change its sponsorship of terrorism, 
if it continues to violate ballistic missile obligations, if it 
violates arms embargo and human rights issues.
    And that is exactly what our legislation does, and I thank 
you for the efforts that we have made.
    We have to recognize that there are other areas that we 
need to be prepared in, in dealing with Iran. Under the JCPOA, 
there are deadlines. After 5 years, the restrictions for 
conventional weapons sales and technology go away. After 8 
years, the restrictions on ballistic missile-related transfers 
to Iran go away. At 10 years, all provisions of the Security 
Council Resolution 2231, which brought the JCPOA into force, 
are terminated.
    So we need to start thinking about, as we reach those 
dates, what are the appropriate policies for the United States 
without the protections we have, that currently exist?
    So it is important that we do that. It is difficult to find 
someone willing to disagree with the notion that Iran's 
behavior in the region is not getting worse. Every conversation 
we have--what is going on in Syria, what is going on in Yemen, 
what is going on with concerns in the Gulf States--Iran comes 
into our discussions. So we need to take a very tough position.
    Lastly, Mr. Chairman, I know you will be disappointed if I 
do not at least mention once the Trump administration in my 
opening statement.
    I am concerned about whether we have a coherent policy from 
the Trump administration. I know it is early. I understand 
that. But take a look at the skinny budget that they presented. 
It would diminish the U.S. role globally rather than 
strengthening our ability to deal with issues that are a 
concern of Iran.
    So I think it is important that this committee speak. I 
think it is important that the Trump administration is held 
accountable, to make sure they understand the seriousness of 
Iran in that region, and how we can constructively try to 
modify its destructive behavior.
    I look forward to hearing from our witnesses.
    The Chairman. Thank you so much. And please know we are all 
independent and are just trying to make the best of life as we 
find it. I do think that what we may see is an administration 
over the next couple years that attempts to move to a place 
where Iran is involved in zero enrichment. That would be, to 
me, a place that most people on the committee would welcome, if 
done appropriately.
    So with that, let me introduce our two witnesses. The first 
witness is Mr. Michael Singh, Lane-Swig senior fellow and 
managing director of the Washington Institute. Our second 
witness is the Honorable Martin Indyk, executive vice president 
of The Brookings Institution.
    You both have been here many times in the past. If you 
could summarize your comments in about 5 minutes or so, without 
objection, your written testimony will be part of the record. I 
am sure people look forward to their questions. If you can just 
begin in the order introduced? And again, we thank you both for 
being here.

 STATEMENT OF MICHAEL SINGH, LANE-SWIG SENIOR FELLOW, MANAGING 
       DIRECTOR, THE WASHINGTON INSTITUTE, WASHINGTON, DC

    Mr. Singh. Thank you, Chairman Corker. It is an honor to be 
here, and Ranking Member Cardin, members of the committee.
    Let me first say congratulations on the bill. Iran has long 
been one of these bipartisan issues, and it is great to see a 
bipartisan bill that I think is a good bill on this issue. It 
is very encouraging.
    Iran is, I think, one of the most pressing challenges that 
we face in the Middle East. It is the region's leading 
revisionist state. It is determined to alter the balance of 
power in the Middle East in its favor at the expense of the 
United States and our allies. It seeks to accomplish this aim 
through the destabilizing projection of power utilizing a sort 
of Middle Eastern version of hybrid warfare.
    And I would agree with you, Chairman, and you, Ranking 
Member Cardin, that Iran's power in the Middle East has grown 
steadily over the last 8 years and especially since the Iran 
nuclear deal was signed. And there is a long list, and I will 
not repeat that list, but it is a list that I think is getting 
longer and getting worse.
    That is not to say that Iran has not faced setbacks in the 
region. Its relationships, for example, with its Palestinian 
proxies, like Islamic Jihad and Hamas, I think have suffered in 
the wake of the Arab uprisings. It has been challenged 
certainly by the rise of ISIS. Just today we saw, for example, 
an ISIS threat against Iran.
    Russia's intervention in Syria has helped Iran in many 
ways. It has helped save the Assad regime, which is a critical 
ally for Iran. But it also has reduced Iran to a junior partner 
and given Iran a bit of a challenge in that sense.
    And U.S. allies, as a result of Iran, are more united in 
the region than ever, and looking to the United States to join 
them to press back on Iran.
    Nevertheless, though, I agree with the general sentiment 
that Iran poses a significant challenge to U.S. interests both 
directly through all these things we mentioned and indirectly 
by contributing to the environment of sectarian strife and 
institutional breakdown in the region that has fueled the rise 
of ISIS and other jihadist groups.
    So, in response, I recommended in my written testimony and 
in previous writings that the new administration adopt a 
strategy of deterrence toward Iran, focused on ensuring that 
Iranian leaders understand that any challenge to U.S. interests 
and U.S. allies is going to come at a steep cost.
    Such a strategy would advance three objectives: first, 
preventing Iran not just from getting a nuclear weapon but from 
further advancing its nuclear weapon capability and also 
sharing nuclear weapons technology, not to forget that; second, 
defeating Iranian ambitions to undermine our allies and reduce 
our influence in the region; and third, to stop Iran from 
supporting terrorist attacks and cyberattacks against us and 
our allies.
    I think that any such strategy faces formidable obstacles. 
In the past, we have enjoyed strategic convergence with our 
allies despite what other tactical disputes we had with them 
because we could all agree that the nuclear issue was a threat 
to us, to the Europeans, to Russia and China even.
    That has been replaced, I think, by strategic divergence 
because our allies outside the Middle East simply do not share 
our threat perception of Iran. They have a very different take 
on things. And Russia and China, of course, see Iran as a 
partner. We saw just today the Iranian President is in Russia, 
and the Iranian Foreign Minister said that Russia could use 
Iranian bases on a case-by-case basis, which is remarkable in 
the historical sweep of things for Iran.
    In addition, in the nuclear deal, in the JCPOA, we agreed 
to concede what I think were our most significant nonmilitary 
tools--financial sanctions, oil sanctions--which really leave 
us with weaker tools than we would like to have to confront 
Iran's illicit behavior.
    And I agree that those obstacles will grow steeper as time 
goes on, as Iran is allowed to purchase conventional weapons 
systems, test missiles, and get help with missiles. It needs, 
for example, international help to develop an ICBM.
    So to successfully accomplish our objectives despite these 
obstacles, I think we need to pursue three lines of action.
    First, with respect to the nuclear deal, I think we need to 
use what is I think a real eagerness in the world for us to 
remain within the deal as leverage to improve the deal, if I 
could say that, first, to insist on a strict interpretation of 
its terms to sort of use what is already on the page but in a 
stricter way perhaps than we have so far; and, second, to reach 
side understandings with European allies and others to 
strengthen the deal sort of outside of the JCPOA framework, so, 
for example, pressing the IAEA to be more aggressive in using 
its existing inspection authorities, persuading our allies to 
agree with us on protocols on punishing Iran for even minor 
violations of the deal, which so far I think we have let pass 
in the past year or so.
    I think we also need to work with those allies and urge 
them to work with us to address the big flaws in the deal. I 
see those as, for example, delays in IAEA access in the 
framework for inspections of suspect sites, nuclear sites; the 
omission of Iran's missile activities--to me, missile 
activities are part of a nuclear program, inherently; and, of 
course, the deal's sunset in 10 to 15 years, which is probably 
the biggest problem with the JCPOA.
    But I do not think we can look at Iran policy as just 
nuclear policy. I think that would be repeating a mistake that, 
unfortunately, we have made in the past. We have to look at the 
nuclear issue through the lens of a broader policy.
    So the second line of action, I think, is countering 
Iranian malign influence in the region. We have to push back on 
Iran's actions in Syria, Iraq, and elsewhere while 
strengthening our partners in those areas to deal with Iran 
themselves. And I think we have to use our full range of policy 
tools--military, intelligence, sanctions, diplomacy--to do 
that.
    And to gain the support of our allies outside the region 
due to that strategic divergence I mentioned, I think we need 
to, whenever possible, do this in frameworks that resonate with 
those allies, so, for example, ending the Syrian conflict.
    And then finally, the third line of action, strengthening 
our allies' defenses against Iran, keeping in mind two 
principles. First, it needs to be key to the actual threats 
that Iran poses, things like proxy warfare, political 
subversion, A2AD efforts embedded by Russia and China, for 
example. And then second, I think we need to try to forge our 
allies into a more effective multilateral alliance so this is 
not just this sort of bouquet of bilateral alliances but no 
real sort of multilateral structure to it, and I propose a 
framework to do that.
    Just to sum up here, in all of these efforts, I think our 
policymaking needs to start with objectives, not with tactics. 
I think we need to put behind us the tendency we have had, I 
think over the last couple of decades, to sort of rule in or 
out this or that policy tool as a starting point, and we need 
to, instead, bring our full capabilities, which are formidable, 
I think, to bear on this problem.
    Second, I think we need to see this challenge in its 
regional context. So, for example, I do not think we can 
sustainably defeat ISIS if we do not also address Iran. So 
these two strategies have to move together, and we need to 
organize our bureaucracy accordingly.
    And then finally, I would agree with Senator Cardin that we 
need to invest in our own diplomatic capacity, which I think is 
vital for wielding all those tools, making sanctions effective, 
force effective and engagement effective. To me, international 
unity will only amplify the pressure on Iran, and when gaps 
develop between ourselves and our allies, that gives our 
adversaries, whether it is Iran or somebody else, room for 
maneuver. And I worry that those gaps will grow with the 
elections in Europe this year and other developments that we 
are seeing, and others will seek to exploit that.
    Thanks very much.
    [The prepared statement of Mr. Singh follows:]

                  Prepared Statement of Michael Singh

    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, thank you for this opportunity to appear before you today to 
discuss United States policy toward Iran.
    Speculation regarding the new U.S. administration's policy toward 
Iran often begins with the question of whether it will keep or scrap 
the Joint Comprehensive Plan of Action (JCPOA), as the nuclear deal 
between Iran and the P5+1 countries--the United States, Britain, 
France, Russia, and China, plus Germany--is formally known. This, 
however, would be the wrong question with which to begin crafting a new 
Iran policy. To start from this premise would be to perpetuate a 
central mistake of the Obama administration: for 8 years, the United 
States has viewed Iran policy through the lens of the nuclear 
negotiations; it should now instead see the nuclear issue through the 
lens of broader Iran policy. Iran's nuclear program is so concerning 
not simply--or even primarily--because of the general U.S. interest in 
nuclear nonproliferation but because of the broader threats Iran poses. 
Iran is the Middle East's leading revisionist state, determined to 
alter the regional balance of power in its own favor at the expense of 
the United States and its allies. Although Iran's policies are far from 
the only problem confronting America in the Middle East, they are 
arguably the most important, and contribute in material ways to many 
others: Iran's efforts to project power have destabilized Lebanon, 
prolonged the Syrian civil war, and fueled resentment among Arab Sunnis 
and the rise of jihadist groups like the Islamic State.
    In response, the United States should pursue a strategy of 
deterrence--ensuring Iran's leadership understands the costs of 
challenging American interests and the benefits of accommodating itself 
to the prevailing international and regional order. Yet Washington must 
also recognize that Tehran is a difficult foe to deter: while it has 
proven itself to be a rational actor, weighing costs and benefits and 
choosing the course of action it deems best for regime interests, its 
anti-Americanism is not a mere indication of prejudice but rather an 
ideological pillar with which it will not easily part. This is why 
better relations with the United States do not entice Iran, although 
regime officials do appear to debate vigorously how best to manage ties 
with Washington in light of Iran's other interests. Nor is Iran's 
desire for regional dominance a recent flirtation: it has been one of 
the region's most influential states for millennia, and its clashes 
with the region's other ancient empires predate the rise of Islam. Any 
Iranian regime--revolutionary or democratic, pro- or anti-Western--
would likely aim to play a leading role in the region. It is this 
mixture of anti-American revisionism and hegemonic ambition that makes 
the Iranian challenge so difficult.
    A strategy of deterrence toward Iran should seek to advance three 
broad objectives:

    1. Nuclear. Prevent Iran from building or acquiring a nuclear 
weapon, and from meaningfully advancing its nuclear weapons 
capabilities (fuel fabrication, weaponization, and delivery). In 
addition, prevent Iran from sharing nuclear weapons technology with 
other states or nonstate actors.

    2. Regional. Counter and defeat Iranian efforts to challenge 
American interests in the Middle East and South/Central Asia or to 
undermine U.S. allies in these regions. In addition, limit Iranian 
malign influence and power-projection capabilities in these regions.

    3. Global. Prevent Iran from mounting terrorist attacks or 
cyberattacks on the United States or U.S. interests, or from supporting 
states and nonstate actors that seek to challenge U.S. interests.

    The following paragraphs lay out a strategy for achieving these 
objectives, the obstacles facing it, and concrete actions the new 
administration can take to advance such a strategy.
                               background
    Former president Barack Obama's legacy on Iran is contentious, to 
say the least. His admirers consider not just the JCPOA but the 
establishment of routine U.S.-Iran engagement to be among his foremost 
foreign policy achievements. Detractors feel quite the opposite. Yet 
when President Obama took office in 2009, views on Iran were not nearly 
so polarized. Iran sanctions legislation enjoyed near-unanimous support 
in Congress, and the American public consistently ranked Iran's nuclear 
program as a top threat. Obama himself largely continued the approach 
toward Iran developed by his predecessor, President George W. Bush--
unilateral and international sanctions and threats of military force 
paired with multilateral diplomacy via the P5+1. Obama, however, 
supplemented this strategy with a strenuous effort to establish direct 
bilateral talks with Iran (past administrations engaged directly with 
Iran, but direct U.S. contact on the nuclear issue had been predicated 
on Iran suspending its uranium-enrichment-and plutonium-reprocessing-
related activities) and largely ended official U.S. questioning of the 
legitimacy of the Iranian regime.
    These departures, though perhaps originally intended to support the 
preexisting strategy, eventually came to overtake it. Direct U.S.-Iran 
talks largely supplanted the P5+1 negotiating format, and the agreement 
that eventually emerged from these contacts fell well short of 
satisfying longstanding international demands of Iran. Meanwhile, the 
talks were pitched not only as a way to resolve the nuclear crisis but 
also as the opening chapter in a hoped-for U.S.-Iran rapprochement. 
Along the way, the United States largely refrained from challenging 
Iranian efforts to project power in the Middle East and elsewhere and 
even enjoined its traditional allies to ``share'' the region with 
Tehran.
    As a result, the Trump administration faces a vastly different 
strategic landscape from that faced by the Obama administration in 
2009. The most obvious difference is the JCPOA itself. Iran's nuclear 
program is larger today than it was in 2009, even as its previous rapid 
expansion has mostly been halted. Still, Iran continues to engage in 
centrifuge research and development and to advance its missile 
programs--the former being explicitly permitted by the JCPOA, the 
latter having been omitted from it entirely. Iran has largely adhered 
to the agreement, though a substantial reduction in International 
Atomic Energy Agency (IAEA) reporting on Iranian nuclear activities and 
various exemptions granted to Iran by the Joint Commission--a body 
established by the JCPOA to adjudicate problems and disputes under the 
deal--mean that such judgments must be made with caution. The United 
States and other P5+1 members have also kept their side of the bargain, 
despite Iranian complaints likely meant in part to extract additional 
concessions from Washington, in part to deflect blame for Iran's 
continuing economic problems, and in part simply reflecting the 
ambiguous wording of the JCPOA. The reality is that while Iran's 
reintegration into the global economy has been far from smooth, the 
country has already reaped tremendous economic benefits from the JCPOA, 
which stand only to increase as time passes.
    Meanwhile, Iran's regional activities have grown inexorably over 
the past 8 years. The control exerted by Hezbollah, an Iranian proxy, 
and its allies over Lebanon has solidified. Iran's Islamic 
Revolutionary Guard Corps (IRGC) and its proxies--a mix of Hezbollah 
forces, Syrian paramilitaries, and Shiite militants from Iraq, 
Pakistan, and Afghanistan--are arguably the strongest force on the 
ground in Syria. Iran-directed or allied militias in Iraq have assumed 
a prominent role in the fight against the Islamic State, having gained 
the official sanction of the Iraqi State and the grudging acceptance of 
the U.S. military. In both places, Iran has embarked on a distinct 
strategic shift--from insurgency to counterinsurgency, and from 
maintaining plausible deniability to touting its role by acknowledging 
its support for Hezbollah and others, publishing details of funerals 
held for Shiite militants and IRGC fighters, and, most prominently, 
sponsoring well-publicized, on-the-spot visits by IRGC Qods Force 
commander Qasem Soleimani. Elsewhere, the Iran-supported Houthis in 
Yemen overthrew the country's internationally recognized government, 
have fought Saudi and UAE forces to a stalemate, and appear to be 
seeking control of the international Bab al-Mandab shipping channel. 
Iranian support for the Taliban in Afghanistan has reportedly expanded 
dramatically. And the IRGC has appeared to play a role in fomenting and 
sustaining anti-government violence in Bahrain.
    This is not to say that Iran has been successful everywhere. Ties 
between Tehran and its Palestinian allies, especially Hamas, appear to 
have deteriorated in the wake of the 2011 Arab uprisings. The rise of 
the Islamic State has threatened Iranian interests in Syria and Iraq, 
despite indications of limited cooperation between IS and the Assad 
regime. Russia's intervention in Syria has been a mixed blessing, 
saving the Assad regime--upon which Tehran depends as a channel for 
projecting power in the Levant--but at the risk of reducing Iran to a 
junior partner in that conflict. And Iran's stepped-up aggression, 
combined with American disengagement, has spurred Gulf Cooperation 
Council unity and joint action, albeit with mixed results.
    Internationally, the JCPOA has not provoked the same internal 
divisions among U.S. allies as it has in Washington. In Europe, the 
agreement is hailed on the right and left alike as a signal 
achievement, even by a French government that clashed with the Obama 
administration over the latter's readiness to offer concessions and 
keep its friends in the dark during talks. U.S. allies in Europe simply 
do not share the American threat perception with regard to Iran; there 
is almost no appetite in Europe for abandoning the JCPOA or taking 
concerted action in response to Iranian regional activities. This is 
the case even though Europe is arguably more threatened than the United 
States by Iran, given the proximity of Iranian missiles and spillover 
from the conflict in Syria, which is sustained by Iranian power. Russia 
and China, for their part, see Iran as an ally, both in the Middle East 
and internationally, as all three share a desire to see the U.S. 
international role diminished.
    This is one of the starkest changes facing the new administration. 
Upon entering office, Presidents Bush and Obama each benefited from a 
general strategic convergence with Europe, and even Russia and China, 
given the priority each placed on nonproliferation as well as on 
heading off a U.S.-Iran conflict. Because these states largely agreed 
with U.S. goals, they could eventually overcome disputes over strategy 
and tactics (e.g., European objections to the use of extraterritorial 
sanctions). The Trump administration will face the opposite--a 
strategic divergence between itself and these states, which pay little 
heed to Iranian nonnuclear misbehavior and are keen to deepen their 
relations, commercial and otherwise, with Tehran.
    In the Middle East, of course, the situation is far different. U.S. 
allies there--Israel, Turkey, and Sunni Arab countries alike--lacked 
enthusiasm for the JCPOA. Even so, none currently advocate its 
abrogation, given worries that the alternative--whether the resumption 
of Iranian nuclear activities or a U.S.-Iran military conflict--would 
be worse. However, all want the United States and others to push back 
against what they see as Iran's increasing boldness in the region, and 
none believe the JCPOA should be a brake on such a response. Among 
these allies, only Israel has proven equal to the task of countering 
Iran's regional activities--Tehran is essentially unchallenged by other 
regional powers in Lebanon, Syria, and Iraq, and has managed in Yemen 
and Bahrain to effectively play a spoiler role without attracting 
direct retaliation. And just like U.S. allies elsewhere, some of these 
states will develop strong post-sanctions economic ties with Iran 
(e.g., transshipment via Dubai and energy links with Turkey) that may 
mitigate their support for any coercive measures contemplated in 
Washington.
    As a result of such developments, any new U.S. strategy toward Iran 
will have to overcome the following obstacles:

    1. Issues regarding the JCPOA

   Should the United States choose to walk away from the JCPOA absent 
        a clear Iranian violation, Washington will be diplomatically 
        isolated and experience significant difficulty rallying allies 
        around an alternative approach.

   Adhering to the JCPOA--which only partially addressed U.S. concerns 
        about Iran's nuclear program and ignored entirely Iran's 
        nonnuclear challenges to U.S. interests--means for-going its 
        most effective sanctions instruments, such as blocking Iranian 
        oil exports or severing Iran from the international financial 
        system.

   Even if the United States does continue to adhere to the JCPOA, its 
        allies outside the Middle East will be reluctant to cooperate 
        in any effort to counter Iran's regional and global nonnuclear 
        activities.

   The JCPOA, if faithfully implemented by all sides, will permit the 
        growth of Iran's conventional and missile forces--on which U.N. 
        sanctions lapse after 5 and 8 years, respectively--and of its 
        economy and international trading links, which taken together 
        will improve Iran's strategic position and erode U.S. leverage.

    2. Increasing Russian or Chinese military links with Iran, together 
with Russia's expanded military footprint in the region generally, will 
reduce U.S. freedom of action and undermine the credibility of military 
options against Iran.

    3. Deterioration over the past 8 years of U.S. strategic and 
perhaps operational links with regional allies.
                           a new iran policy
    To advance the three pillars of its nuclear, regional, and global 
objectives with respect to Iran, the United States should adopt a 
strategy of deterrence. Such a strategy requires Iran to believe that 
challenging U.S. interests will be costly and, conversely, that playing 
by the ``rules'' of the regional and international order will be 
beneficial. But before turning to the specific policies that should 
constitute such a strategy, discussing some general principles will be 
useful:

   Foster U.S. capability, credibility, and clarity. Harvard's Graham 
        Allison has observed that deterrence requires capability, 
        credibility, and clarity. Particularly vital to maintaining 
        deterrence are continuing to maintain a robust forward-deployed 
        military presence in the Middle East, exercising diplomatic 
        leadership in the region, and continuing to cultivate expertise 
        on Iran throughout the executive branch. The United States and 
        our allies should also avoid responding reflexively to Iran, 
        instead acting patiently and methodically to address Iranian 
        challenges to American interests.

   Strengthen capabilities of U.S. allies. The United States should 
        aim to deter Iran not only through punitive action after, for 
        instance, a missile test or naval provocation but also by 
        strengthening allies' offensive and especially defensive 
        capabilities so that Iran will judge potential challenges as 
        having little chance of success.

   Wield policy tools in concert. In this case and others, the United 
        States should wield policy tools in concert rather than 
        sequentially and should take no tools off the table, whether 
        military action or diplomatic engagement; historically, the 
        most effective approach to Iran has been that of diplomacy 
        backed by force or the credible threat of force.

   Preserve international unity. Whatever actions the United States 
        takes, it should aim to preserve to the extent possible 
        international unity, and should in turn count on Iran to try to 
        split America from its allies.

   Understand policy trade-offs. While the United States will need to 
        balance its efforts to deter Iran against other foreign policy 
        goals, U.S. officials should ensure they properly understand 
        those trade-offs. For example, pushing back against Iran does 
        not contradict but rather complements an effort to counter the 
        Islamic State, because Iran's activities, such as its support 
        for the Assad regime, have fueled the rise of IS.

   Consolidate responsibility. Bureaucratically, the administration 
        should ensure that a single official at the State Department 
        oversees all aspects of Iran policy, with the aim of ensuring 
        that JCPOA implementation, regional policy, and other matters 
        are integrated into a single coordinated strategy rather than 
        treated separately or competitively.
           pillar 1: enforcing and enhancing the nuclear deal
    The JCPOA is a flawed agreement--it permits Iran too much nuclear 
activity, does not address Iran's past weaponization activities or 
missile development, and has insufficient provisions for guarding 
against clandestine Iranian nuclear work. Moreover, its provisions 
begin to expire within a decade. Nevertheless, it is part of the 
reality that confronts the new administration, and Iran and U.S. allies 
alike would resist its renegotiation. In walking away from the deal, 
Washington would face the difficult task of devising a new strategy to 
contain Iran's nuclear program and rallying allied support for such a 
strategy in the face of intense international skepticism.
    The United States should therefore neither scrap the JCPOA nor make 
an absolute commitment to it, but rather make plain to Iran and to 
other diplomatic partners that the deal's survival will depend on the 
rigor with which it is enforced. Because those partners are eager to 
preserve the JCPOA, the prospect of continued U.S. adherence will 
provide leverage to insist on its enforcement and enhancement--not 
through reopening the P5+1 process, but through strict interpretation 
of the deal's terms and side understandings with European and other 
allies on related issues. Iran also appears eager to preserve the 
JCPOA, minimizing any risk that more rigorous enforcement alone would 
prompt Iran to walk away from the agreement.
    In ``rigorously enforcing'' the JCPOA, the Trump administration 
should bear in mind that if Iran cheats on the deal, it will likely 
seek to do so clandestinely, using undeclared facilities rather than 
those under international monitoring. To guard against such an 
eventuality, the administration should consider taking steps in the 
following areas:
Boosting Transparency
   Insist that the IAEA provide greater detail in its public reporting 
        on Iran's nuclear activities, akin to the reports it published 
        prior to the implementation of the JCPOA. While Iran is likely 
        to protest, such a step would help bolster public confidence 
        that Iran is, in fact, complying with its obligations.

   Provide regular, unclassified reports to Congress on Iran's 
        compliance with the JCPOA, the progress of its nuclear and 
        dual-use procurement efforts, centrifuge R&D, and missile 
        development, and other states' compliance with the JCPOA and 
        remaining international sanctions.

   Insist that any decisions of the JCPOA Joint Commission be made 
        public. According to the agreement, this requires consensus of 
        the group, which includes Iran, Russia, and China. However, the 
        United States and the EU3 (France, Germany, and the United 
        Kingdom) can predicate their support for Joint Commission 
        decisions on these states' agreement to transparency.
Intelligence Sharing
   Continue to prioritize the allocation of intelligence resources for 
        monitoring Iran's nuclear activities, as well as possible 
        related risks (e.g., nuclear procurement from abroad or the 
        establishment of clandestine Iranian nuclear facilities in 
        third countries).

   Establish a continuous intelligence-sharing mechanism with 
        European, Asian, and Middle East allies, as well as analytical 
        exchanges.

   Fully fund intelligence collection on Iran, despite the rising 
        priority of other efforts such as the campaign to counter IS.
Inspections and Verification
   Insist that Iran provide initial baseline declarations for all 
        materiel and components applicable to its nuclear program, such 
        as uranium stocks and centrifuge components. This will help 
        avert any discrepancy between, for example, centrifuge 
        inventories and centrifuge component manufacturing that could 
        point to an undeclared nuclear effort. Push the IAEA to use its 
        inspection authorities to verify these baselines.

   Likewise, press the IAEA to be aggressive in using its inspection 
        authorities under the Additional Protocol, which complements 
        its Safeguards Agreement, and the JCPOA, especially with regard 
        to possible undeclared nuclear activities and end-use 
        verification for nuclear and dual-use procurement. A norm 
        should be established according to which such inspections are 
        not exceptional but rather part of the ordinary functioning of 
        the JCPOA, and thus need not precipitate crises.

   Fully fund the IAEA to ensure no shortfall in its capacity to 
        implement the JCPOA.
Procurement and Counterproliferation \1\
   Work to ensure that U.N. member states and the international 
        private sector understand their responsibilities with respect 
        to nuclear and dual-use exports to Iran.

   Work to bolster the export-control capacity of all states, 
        especially those with a history of involvement in illicit 
        Iranian nuclear and missile procurement.

   Restrict use of the procurement channel by Iranian entities with a 
        history of illicit procurement, or--in the case of nuclear 
        procurement--for civilian end users at unmonitored facilities.

   Urge states to maintain a presumption of denial--rather than a 
        presumption of approval--for procurement-channel requests that 
        cannot be adequately vetted within the 30-day period specified 
        in the JCPOA.

   Urge states--including Iran itself--to make nuclear and dual-use 
        exports to Iran outside the procurement channel a crime under 
        domestic laws.

   Given the JCPOA's reliance on suppliers to verify end use of dual-
        use items, press the IAEA to employ its inspection authorities 
        to conduct end-use verifications in suspicious cases or when 
        the supplier has shown signs of being remiss or unreliable.

   Reinstate the U.N. Panel of Experts--eliminated with the adoption 
        of the JCPOA--or a similar body to independently assess Iran's 
        nuclear and dual-use procurement efforts.
Sanctions and Responding to Violations
   The United States should continue to strictly meet its obligations, 
        but should resist any demand to exceed those obligations unless 
        Iran is willing to add to its own obligations; the U.S. (and 
        P5+1) commitment is to take certain actions, not to ensure 
        certain outcomes for Iran.

   Make clear to other P5+1 members that Washington expects them to 
        enforce not only the JCPOA but also the wider-reaching 
        requirements of U.N. Security Council Resolution 2231 (e.g., 
        its prohibitions against certain arms- and missile-related 
        exports to Iran) and any other relevant UNSC resolutions.

   Urge states to enact domestic legislation, as the United States has 
        done, that will allow them to quickly reimpose sanctions should 
        Iran violate the JCPOA or should the deal otherwise unravel.

   Together with the EU3 and other allies, develop protocols for 
        responding to violations of the JCPOA or U.N. resolutions, 
        including a menu of penalties short of full snapback for minor 
        infringements. Seek agreement with allies to no longer excuse 
        violations such as exceeding agreed limits on low-enriched 
        uranium stockpiles or skirting restrictions on heavy-water 
        production by storing excess quantities in neighboring Oman.

   Emphasize that the military option remains on the table, and 
        maintain a robust presence and schedule of exercises to lend 
        credibility to that option.

    Because the JCPOA does not address certain important aspects of 
Iran's nuclear program--e.g., its missile program--simply enforcing the 
deal rigorously is not enough. Rather, the administration will need 
also to address critical flaws in the agreement that could permit Iran 
to advance its nuclear weapons efforts even while fully complying with 
the deal's terms.

   Access Delays: The JCPOA essentially permits Iran to delay IAEA 
        inspector access to suspected undeclared nuclear facilities for 
        24 days. While it would be difficult to fully eradicate 
        evidence of work with radioactive materials in this timeframe, 
        nuclear-weapons-related work does not always require the 
        introduction of such materials; in these cases, 24 days would 
        be sufficient to destroy evidence. Even in instances where 
        radioactive materials had been introduced, Iran could use the 
        time to eradicate other evidence critical to determining the 
        purpose of the site in question. To address this problem, the 
        United States should insist that the relevant timeframe for 
        IAEA access to such sites is the 24-hour limit specified in the 
        Additional Protocol and that delays beyond this limit merit 
        penalties and could be grounds for reimposing sanctions.

   Weaponization Efforts--or Possible Military Dimensions (PMDs): The 
        JCPOA does not require Iran to account for its past 
        weaponization work or to give the IAEA access to the sites, 
        personnel, and documents involved in this work. Rather, it 
        simply closes the IAEA's past PMD investigation in the interest 
        of moving forward. While there is no reason at this stage to 
        seek to penalize Iran for its past weaponization work, U.S. 
        (and P5+1) officials must act to fill any knowledge gaps 
        regarding how far that work progressed and to ensure that 
        weaponization-related sites and personnel have not resumed 
        their work. To that end, the IAEA should use its inspection 
        authorities to request access to the relevant sites and 
        personnel, not to reopen past investigations--which would be 
        inconsistent with the JCPOA--but to ascertain their current 
        activities.

   Missiles: Arguably the biggest omission in the JCPOA concerns 
        Iran's missile activities. The JCPOA does not address them at 
        all, and UNSC Resolution 2231 scales back the previous ban on 
        missile testing by Iran and extends the prohibition on other 
        states assisting Iran with its missile development efforts only 
        until 2023. Because Iran will likely require international 
        assistance should it seek to develop an intercontinental 
        ballistic missile, this provision represents a significant 
        achievement for Tehran. The United States should seek allied 
        support for a fourfold response: (1) stricter enforcement of 
        existing sanctions targeting Iran's missile activities and the 
        adoption of new ones as needed; (2) a commitment to intercept 
        or otherwise respond to any Iranian missile test that endangers 
        the territory or forces of the United States and its allies; 
        (3) stepped-up efforts to interdict missile-related shipments 
        to and from Iran, as well as to gather and share the 
        intelligence required to engage in such interdictions; and (4) 
        strengthened and better-integrated missile defense in the 
        Middle East and Europe to negate any advantages Iran seeks to 
        gain by improving its missile capabilities.

   Sunset: Whatever the JCPOA's strengths and weaknesses, it is a 
        temporary accord. Its restrictions, and those added by UNSC 
        Resolution 2231, begin to phase out as early as 2021 and will 
        expire almost in full by 2026-31. Thus, while the deal arguably 
        buys time for Iran's adversaries, it also does so for Iran--
        affording the Islamic Republic a period to develop its 
        centrifuge and missile capabilities while shielded from the 
        harshest international sanctions. As a result, when Iran 
        eventually resumes the expansion of its enrichment- and 
        reprocessing-related activities, its ``breakout time'' could be 
        dangerously low and its ability to field a usable nuclear 
        missile could be dangerously advanced. To guard against this 
        eventuality, the United States should seek allied support for a 
        threefold response: (1) declaring as a matter of policy that 
        the United States and others will not passively accept the 
        further expansion of Iran's nuclear activities when the JCPOA 
        lapses; (2) seeking to negotiate the extension and expansion of 
        the JCPOA's restrictions on Iran's nuclear activities; and (3) 
        seeking to bolster the global nuclear nonproliferation regime 
        to comprehensively restrict states' fuel-cycle activities and 
        limit Iran's options when the JCPOA expires.
       pillar 2: countering iran's regional and global activities
    While the United States has focused its Iran policy on the nuclear 
issue, American allies in the Middle East have been far more concerned 
about what they see as Tehran's mounting efforts to project power in 
the region. While Iran continues to operate mainly through proxies such 
as Lebanese Hezbollah and Shiite militias in Iraq and elsewhere, its 
regional activities are increasingly direct and overt. Iranian 
officials, especially those affiliated with the IRGC, make no attempt 
to hide the purpose of these activities--to project Iranian power to 
the Mediterranean Sea, deter the United States, and weaken and 
otherwise preoccupy its adversaries. Among Iran's goals is undercutting 
the monopoly of force and national loyalty in target states by creating 
alternate security, political, and religious institutions beholden to 
Tehran. This pursuit not only amplifies Iran's power, it also 
undermines already fragile state institutions and fuels sectarianism. 
For various reasons, Iran relies on asymmetric and strategic power 
rather than conventional power, and it will likely continue to do so 
even if relaxed sanctions create opportunities for Iran to rebuild its 
conventional capabilities.
    Nevertheless, the United States should avoid the temptation to 
reflexively oppose every Iranian action in the region--instead, the 
focus should be on deterring Iran where it clearly challenges U.S. 
interests and strategy. And because most U.S. allies outside the Middle 
East do not share the U.S. threat perception with respect to Iran 
(e.g., on its missile program or support for terrorism) and are leery 
of reopening the nuclear issue, any effort to push back on the Islamic 
Republic should emphasize the Iranian role in issues such as 
instability in Syria and Yemen or human rights violations, which are 
more likely to garner these allies' interest and support. In addition, 
successful deterrence requires that the United States and its allies be 
prepared to ease off these punitive measures if Iran moderates its 
policies; otherwise, Tehran will have no incentive to do so.
Syria, Iraq, and Yemen
   In Syria, the United States should seek to magnify differences 
        between Russia and Iran by continuing to emphasize the need for 
        President Bashar al-Assad to step down as part of a political 
        transition, a development Moscow may ultimately find more 
        acceptable than would Tehran.

   Washington must insist, as part of any contacts with Russia 
        regarding Syria, on the withdrawal of Iranian forces and Iran-
        backed foreign militias--including Hezbollah and Shiite 
        militants from Iraq, Afghanistan, and Pakistan--and assert that 
        the United States and its allies reserve the right to take 
        direct action against these militias if they remain.

   Any discussion of combating terrorist groups in Syria should cover 
        not only Sunni groups but also Iranian proxies such as 
        Hezbollah, which is designated as a terrorist group in the 
        United States and elsewhere.

   Sanctions on the Assad regime and any Iranian or Iran-backed 
        individuals and entities supporting it should be strictly 
        enforced and, if necessary, enhanced; further, Iran should be 
        sanctioned for the provision of arms and other military support 
        to Syria--and to militias elsewhere in the region--in violation 
        of UNSC Resolution 2231 and other measures.

   Extend the international coalition's mission in Iraq by at least 2 
        years, in order to demonstrate our ongoing (albeit limited) 
        commitment to Baghdad.

   Extend funding to continue building and training the Iraqi Counter 
        Terrorism Service and Iraqi security forces.

   Push Baghdad to resist undue Iranian influence (e.g., the 
        institutionalization of Iran-backed militias) and to abide by 
        U.N. resolutions on Iran (e.g., against arms transfers from the 
        Islamic Republic) and assist it in doing so.

   With respect to Arab States, particularly those of the GCC, 
        Washington should press for greater outreach to and 
        coordination with Iraq.

   In Yemen, efforts should be intensified to interdict arms, funding, 
        and other forms of support for the Houthis; Washington should 
        likewise increase regional intelligence sharing toward that 
        end.

   The U.S. leadership must rally international partners to respond 
        forcefully to Iranian-backed threats to shipping through the 
        Bab al-Mandab Strait, using patrols, interdictions, and direct 
        action against any personnel threatening freedom of navigation 
        with missiles, mines, or other weapons.

   Finally, Washington should publicize the role that Iran-backed 
        militias play in human rights violations across the region and 
        seek to impose international and unilateral sanctions on them 
        wherever Washington and the U.N. have not already done so.
Countering Iranian Provocations and Proxy Networks
   Review U.S. Navy procedures for responding to unsafe and 
        provocative conduct by Iranian naval forces to ensure that Iran 
        is deterred and the risk of inadvertent clashes is minimized.

   Maintain and, if needed, broaden freedom-of-navigation operations 
        to challenge excessive Iranian maritime claims in the Gulf.

   Deepen intelligence sharing among U.S. regional allies on Iranian 
        arms shipments and provision of other support for proxies, and 
        interdict such support in concert with allies when intelligence 
        merits doing so.

   Engage in discreet discussions with Israel and Arab allies 
        regarding new ways of countering Iran-backed militias, and 
        where this threat might spread next.

   Press the U.N. to act in response to Iranian violation of the 
        prohibition on arms shipments to groups such as Hezbollah and 
        the Houthis.

   Make clear to Tehran that attacks on U.S. forces or allies by 
        Iranian or Iran-backed forces will merit a firm and direct 
        response against Iranian interests; consider direct action 
        targeting Iranian proxies where U.S. interests are directly 
        threatened (e.g., safety of shipping through the Bab al-Mandab, 
        safety of U.S. vessels in the Gulf).

   Publicly expose Iranian support for regional proxies through 
        declassification of intelligence and diplomatic and media 
        briefings; likewise, debunk exaggerated Iranian military claims 
        when appropriate.
Sanctions
   Bearing in mind that sanctions are an important tool (even if not a 
        silver bullet), recognize that sanctions diplomacy--i.e., 
        gaining the agreement of other countries to act in concert with 
        the United States to both amplify pressure on Iran and ensure 
        its compliance with existing measures--is just as important as 
        Washington's own adoption and enforcement of sanctions. 
        Strictly enforce existing sanctions on Iran--especially on the 
        IRGC and its proxies and affiliates--and add to them as 
        needed.\2\

   Publish more extensive ``watch lists'' of IRGC-owned or affiliated 
        entities and front companies to help the international private 
        sector avoid doing business inadvertently with the IRGC. 
        Significantly expand the number of IRGC-related designations 
        and consider lowering the threshold of IRGC ownership/control 
        required for designation.

   Conduct a review of Iran Air and other Iranian commercial airlines 
        to ensure that any aircraft sales to them satisfy the JCPOA 
        requirement of strictly civilian end-use.

   Increase sanctions focus on less-traditional areas, such as 
        corruption, money laundering, and human rights, in order to 
        widen international support. Seek international condemnation of 
        Iran for its threats against Israel.

   Press regional states to ensure compliance with sanctions on Iran 
        by boosting intelligence gathering, inspection of shipments, 
        and security of maritime and land borders (e.g., the Oman-Yemen 
        border); where needed, bolster their ability to do so.

   Press states outside the region to not only commit to compliance 
        with Iran sanctions but to strengthen their compliance through 
        intelligence collection and steps to ensure that domestic laws 
        support sanctions enforcement.

   Continue actively to educate the international private sector 
        regarding its sanctions compliance obligations with respect to 
        Iran.
Other Arenas
   Step up intelligence gathering and international cooperation aimed 
        at the terrorism- and proliferation-related and criminal 
        activities of Iran and its proxies, especially Hezbollah, 
        outside the Middle East.

   Given Iran's possession of nuclear materials and knowledge, and the 
        spread of nuclear fuel-cycle activities elsewhere in the world, 
        reinvigorate nuclear security efforts in the United States and 
        strengthen the global nonproliferation regime.

   In accordance with any new U.S. ``cyber doctrine,'' warn Iran 
        against malign cyber activities directed at the United States 
        and its allies, and impose costs when Iran engages in such 
        activities.
            pillar 3: strengthening u.s. regional alliances
    While the credibility of punitive measures is important for 
effective deterrence, a strong defense is arguably even more crucial. 
To that end, bolstering U.S. allies in the Middle East should be a key 
element of American policy toward Iran. Such an effort should be guided 
by two principles. First, it should address the actual threats these 
allies face. These are largely asymmetric in nature; Iran does not 
challenge U.S. allies conventionally but rather through terrorism, 
proxy warfare, political warfare, and subversion, similar to the 
``hybrid'' or ``gray zone'' warfare waged by Russia in Europe. Iran 
also wields a formidable missile force, putting a premium on theater 
missile defense in response. Second, to the extent possible, the U.S. 
goal should be to build a multilateral alliance system in the Middle 
East, not a series of strong but disconnected bilateral alliances. The 
Middle East--especially the Gulf--is crowded geographically, making 
coordination and interoperability among forces an imperative. A 
multilateral alliance--even if the region is decades removed from a 
``Middle East NATO''--could also provide a platform for U.S. allies to 
solve regional problems with minimal external intervention, a balance 
that would be welcomed both in the region and in the United States.
Regional Coordination
   As suggested earlier, revive the George W. Bush-era Gulf Security 
        Dialogue, expanded to include Jordan, Egypt, and Morocco. The 
        GSD had six pillars, all of which remain relevant: (1) GCC 
        defensive capabilities and interoperability; (2) regional 
        security issues; (3) counterproliferation; (4) counterterrorism 
        and internal security; (5) critical infrastructure protection--
        to which cyberdefense should now be added; and (6) support for 
        Iraq. Other external powers, such as the European Union, 
        Russia, and China, should be invited to observe and contribute 
        expertise.

   Through the GSD+3: (1) Bolster intelligence sharing and 
        intelligence fusion, with a particular focus on Iran and 
        terrorist groups. (2) Foster a dialogue on the coordination of 
        military procurement and training, and on increasing the 
        effectiveness of internal and external security institutions--
        as opposed to merely the acquisition of larger and more 
        powerful arsenals. (3) Foster a dialogue on countering the 
        particular threats posed by Iran--to include antiaccess/area 
        denial, terrorism, cyberattack, missiles, and subversion and 
        political warfare--drawing upon lessons learned in the European 
        theater.

   Look for opportunities to use the GSD+3 to engage with Israel, 
        particularly on issues of regional security, 
        counterproliferation, counterterrorism, critical infrastructure 
        protection, and strategic planning, with the aim of discerning 
        and preventing future regional threats.

   Increase investments in regional ballistic missile defense.

   Plan for the contingency of greater Russian and/or Chinese 
        cooperation with Iran and the strengthening of Iranian 
        antiaccess/area-denial capabilities that restrict the freedom 
        of action of U.S. and allied forces, drawing upon lessons from 
        the European and Asia-Pacific theaters.\3\
Bilateral Efforts
   Initiate bilateral dialogue with each U.S. ally in the region to 
        determine its key vulnerabilities, shortfalls in effectiveness, 
        and equipment needs, drawing upon lessons from recent conflicts 
        such as Yemen.

   Urge allies to make political, security, and economic institutions 
        more effective, responsive, and accountable to guard against 
        popular discontent and ensure resilience in the face of 
        subversion by Iran or extremist groups.

   Initiate a high-level dialogue with Israel on regional threats, 
        including Iran and Syria, that consists largely of military and 
        intelligence officials but led by the White House and Prime 
        Minister's Office. Establish a trusted backchannel between the 
        White House and the PMO.

   Work with Israel to prepare a plan for responding to a Hezbollah 
        missile attack on Israel, emphasizing deterrence not only of 
        Hezbollah but also of Iran.

   Reinvigorate efforts to strengthen the Lebanese government and 
        loosen Hezbollah's grip on Lebanon, focusing especially on 
        reducing Hezbollah's arsenal and freedom of action.
Engagement With Iran
   Maintain existing channels of diplomatic engagement with Iran. 
        However, when engaging Iran, do so multilaterally with regional 
        allies whenever possible.

   Encourage U.S. allies to engage with Iran, but ensure they are 
        doing so from a position of strength, with U.S. support.

   Expand the Iranian people's contact with the United States through 
        increased people-to-people exchanges and visa issuance. Express 
        support for human rights in Iran.

   Avoid transactional engagement with Iran (e.g., on counternarcotics 
        and Afghanistan) that benefits the regime without prompting 
        improvements in Iranian policies on matters of core importance 
        to the United States and its allies.

   Engagement should be seen as just another tool in the policy 
        toolkit, not as absolutely good or bad on its own merits; it 
        should be used as conditions and strategy dictate.

------------------
Notes

    \1\ For a full treatment of this topic, see David Albright and 
Andrea Stricker, ``The Iran Nuclear Deal's Procurement Channel: 
Overcoming Post-Implementation Day Issues,'' Institute for Science and 
International Security, April 21, 2016, http://isis-online.org/uploads/
isis-reports/documents/
JCPOA_Procurement_Channel_Post_Implementation_Day_21April2016_Final1_1.p
df.
    \2\ For a full treatment of this issue, see Katherine Bauer, 
Patrick Clawson, and Matthew Levitt, Reinforcing the Role of Sanctions 
in Restraining Iran (The Washington Institute for Near East Policy, 
February 2017), http://www.washingtoninstitute.org/policy-analysis/
view/reinforcing-the-role-of-sanctions-in-restraining-iran.
    \3\ For a full treatment of this issue, see Mark Gunzinger with 
Chris Dougherty, Outside-In: Operating from Range to Defeat Iran's 
Anti-Access and Area-Denial Threats (Center for Strategic and Budgetary 
Assessments, posted January 17, 2012), http://csbaonline.org/research/
publications/outside-in-operating-from-range-to-defeat-irans-anti-
access-and-area-denial.

    The Chairman. Very good. Thank you so much.
    Mr. Indyk?

 STATEMENT OF HON. MARTIN S. INDYK, EXECUTIVE VICE PRESIDENT, 
           THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Ambassador Indyk. Thank you very much, Mr. Chairman. It is 
a pleasure to be back here in front of you and Senator Cardin 
and your colleagues. I have to applaud the committee for the 
excellent work that you are doing on a bipartisan basis, no 
more importantly than here today in the question of what to do 
about the challenge from Iran.
    And in that context, I applaud the bill, and I also applaud 
its actual mandating of a development of a strategy for dealing 
with the Iranian challenge.
    I want to associate myself with a lot of what my colleague 
Michael Singh has said, and rather than repeat some of those 
things, I would like to focus specifically on what I think the 
necessary elements are of a pushback strategy.
    I think we are all familiar with the kind of dangers that 
Iran poses and the way over the last 4 decades since the 
Iranian revolution it has used its proxies, whether it is 
Hezbollah or Shia militias, its own Iranian Revolutionary Guard 
force or support of Shia populations or even Shia rebels like 
the Houthis in Yemen, to exploit the cracks that exist in the 
Sunni world and advance the hegemonic ambitions for the region.
    And one would have to say, when you look back at what they 
have done over the last 4 decades and where they are today, 
they have had considerable success. They have established an 
arc of influence that stretches from Lebanon on the 
Mediterranean Sea across Syria in the Middle East heartland, to 
Iraq and Bahrain on the gulf, and to Yemen on the Red Sea.
    Iran has been assiduously pursuing this effort and has a 
big stake in it. The Iranians live in a strategic environment. 
They have practiced the art of strategy since the days of Cyrus 
the Great 600 years before the birth of Christ, and they have 
formidable capacities for dealing with and promoting their 
ambitions in the region.
    Therefore, any new American strategy to counter Iran's 
threats needs to take account of the way, in the Middle East, 
everything is connected, particularly for the Iranians.
    So if we push back on Iran in Yemen, as the Trump 
administration is now considering doing, that may well stir up 
the Shia population in Bahrain. If we push back on Iran in 
Syria, there is a lot of loose talk about that today, they 
might well use the Shia militias in Iraq to undermine our 
effort to eliminate the crisis there or encourage Hamas to 
launch rocket attacks on Israel from Gaza.
    In short, countering Iran's regional ambitions is a deadly 
business, and we should approach it with the seriousness it 
requires, as I know this committee is doing.
    What we need is a comprehensive, integrated, and 
sustainable pushback strategy. But in pursuing it, we should be 
careful about making threats unless we are prepared to back 
them up, and we should be wary of declaring objectives that we 
have neither the will nor the capacity to achieve. I hoped that 
that era was over.
    I this morning will just very quickly outline the six 
elements that I think are necessary in a comprehensive strategy 
towards pushing back Iran.
    The first, as Senator Cardin has mentioned, is the need to 
rigorously enforce the JCPOA, the Iran nuclear deal. That is 
the first element, most importantly because, as long as it is 
rigorously enforced, it provides us with time to deal with the 
challenges that Iran is posing to us across the Middle East 
region. With it, everything becomes easier. Without it, 
everything becomes more difficult because we have to deal with 
the challenges of Iran's nuclear capabilities and the potential 
for a nuclear arms race that they would trigger.
    The second element is support for the Iraqi Government of 
Haider al-Abadi and the Iraqi Armed Forces as they campaign to 
defeat ISIS and regain control of Mosul and the Sunni regions 
in Iraq. That is important because, as a result of the last 
Gulf War, the gates of Babylon were opened to Iran and they 
moved in very quickly and very effectively to establish their 
dominance over the previous Maliki government.
    Today, al-Abadi seeks to take some distance from Iran, but 
he needs help to do so. And we, together with our Sunni allies, 
can counterbalance Iran in Iraq, and we have an opportunity 
particularly to do so in Mosul and to make sure that the Shia 
militias are not able to move in there and establish control in 
the wake of our forcing ISIS out.
    That is a critical post-reconstruction challenge that we 
have to succeed in, not only to prevent ISIS from rebuilding 
itself in some other form even more malignant, but also to 
prevent that land bridge that Iran is seeking to establish from 
Iran across northern Iraq through Syria to Lebanon.
    The third element in the pushback strategy is promoting an 
effective political resolution of the civil war in Yemen. The 
idea that the Yemen civil war can be resolved by military force 
alone is an illusion which will only get us more sucked into 
the quagmire that Saudi Arabia and the Emirates, our Arab 
allies there, are already engaged in.
    To apply military pressure to produce a more reasonable 
outcome at the negotiating table is not an unreasonable 
approach. But to only focus on a military solution will be a 
problem that Iran will exploit. It is a low-cost way of 
diverting us from the other more important areas.
    My time has expired, and I will just quickly mention that 
Syria is the most complicated problem. Perhaps we can get into 
it in the discussion. We should not underestimate that Iran has 
a core interest there, and, with 25,000 forces on the ground, 
has embedded itself both within the Assad government and 
institutions and on the ground there.
    And we do not, Mr. Chairman, have a vital interest in who 
controls Syria. Iran does. If we can push them out of Syria 
eventually, that would be a huge setback to them. But they will 
fight very hard to preserve their position, and we need to be 
very smart about the way we go about it, in terms of setting 
more modest objectives to restrict their ability to operate 
there and to insist that any political resolution requires the 
withdrawal of both armed forces, which would give us the 
legitimacy to demand that the Iranian-controlled forces 
withdraw.
    The last two elements, one is to concern our activities 
with our like-minded allies in the region, something, I think, 
we have a real opportunity to do.
    And finally, the controversial point that I make at the end 
there, but I think it is important, that as we build up our 
leverage on Iran, including with the sanctions that you are 
introducing here and the potential sanctions for any 
misbehavior or failure to fulfill the JCPOA, we should engage 
in negotiations with Iranians making clear what our 
requirements are in terms of ending their export of the 
revolution, ending their destabilization of our allies and the 
threatening of our allies in the region, and accepting controls 
on their missile and nuclear activities, particularly in the 
period after the sunset.
    I think that a combination of these elements can achieve, 
over time, a pushback of Iran, and I applaud the committee for 
taking it on.
    [The prepared statement of Ambassador Indyk follows:]

            Prepared Statement of Ambassador Martin S. Indyk

    Thank you, Mr. Chairman, for inviting me to address the Senate 
Foreign Relations Committee today on a matter of considerable import: 
the bipartisan legislation to counter Iran's destabilizing activities. 
As well as imposing sanctions on the IRGC for the organization's 
involvement in terrorism, and on individuals involved in Iran's 
ballistic missile program, the CIDA legislation also mandates the 
administration to:
     . . . develop and submit to the appropriate Congressional 
committees a strategy for deterring conventional and asymmetric Iranian 
activities and threats that directly threaten the United States and key 
allies in the Middle East, North Africa, and beyond.
    While the legislation imposes sanctions designed to address the 
threat posed by Iran's development of intercontinental ballistic 
missiles, it clearly seeks to embed that effort in a broader approach 
that contends with Iran's destabilizing activities in the Middle East. 
Developing that strategy is an urgent priority because Iran's hegemonic 
ambitions threaten the interests of the United States and its Middle 
Eastern allies.
    Through the sponsorship of terrorist organizations like Hezbollah 
and Palestine Islamic Jihad, the control of Shia militias like the Badr 
Brigade in Iraq and the Liwa Fatemayoun in Syria (whose troops come 
from Afghanistan), the deployment of the Iranian Revolutionary Guards 
Al Qods force, and the provision of missiles and other arms to Houthi 
rebels in Yemen and other proxies across the region, Iran has gone a 
long way to achieving its regional ambitions. It has established an 
``arc of influence'' that stretches from Lebanon on the Mediterranean 
Sea, across Syria in the Middle East heartland, to Iraq and Bahrain on 
the Gulf, and to Yemen on the Red Sea.
    Iran has been assiduously pursuing this effort since the overthrow 
of the Shah almost 4 decades ago when it began its unceasing efforts to 
export its revolution to the Middle East and beyond. In the 1990s, for 
example, when I had responsibility for Iran policy in the Clinton 
administration, we pursued a strategy of containment to deal with the 
threat that was already manifest. That was part of a two-branch 
strategy, in which President Clinton sought to advance a comprehensive 
Arab-Israeli peace as the second branch. The calculation in those days 
was that the more progress we made in peacemaking, the more effective 
we would be in containing the Iranian revolution, and the more 
effectively we isolated Iran, the more progress we would be able to 
make in advancing peace.
    The Iranians, who live in a strategic environment and have 
practiced the art of strategy since the days of Cyrus the Great, 600 
years before the birth of Christ, were successful in countering our 
approach by systematically undermining our efforts to advance Arab-
Israeli peace, using their proxies, Hezbollah, Palestine Islamic Jihad, 
and Hamas. Had we succeeded in achieving a breakthrough to peace 
between Israel and Syria in those days, which was actually much closer 
than the Israeli-Palestinian deal we were also pursuing, the Iranians 
would have suffered a strategic setback that might well have changed 
the course of Middle Eastern history.
    But that is conjecture. What is not conjecture is the fact that 
Syria remains the lynchpin of Iran's strategy for dominating the Middle 
East heartland. Therefore, any new American strategy to counter Iran's 
threats needs to take account of the way that, in the Middle East, 
everything is connected. Push back on Iran in Yemen, and they might 
well stir up the Shia population in Bahrain. Push back on Iran in 
Syria, and they might well use the Shia militias in Iraq to undermine 
our effort to eliminate ISIS there, or encourage Hamas to launch rocket 
attacks on Israel from Gaza.
    Back in 1996, when the Iranians thought we were making progress in 
brokering peace between Israel and Syria, they ordered Hezbollah to 
launch a terrorist attack on the Khobar Towers in Dahran, Saudi Arabia, 
killing 19 U.S. Air Force personnel. They are quite capable of 
repeating that exercise today against American troops in Syria or Iraq. 
As Senator Cotton knows, since he asked the question of General 
Dunford, the Chairman of the Joint Chiefs of Staff, in his confirmation 
hearings in 2015, the Iranians may have been responsible for the deaths 
of as many as 500 American soldiers in Iraq during the Surge, by 
supplying explosively formed penetrators (EFPs)to Shia militias.\1\
    In short, countering Iran's regional ambitions is deadly business 
and we should approach it with the seriousness it deserves. What we 
need is a comprehensive, integrated and sustainable ``push-back'' 
strategy. But in pursuing it, we should be careful about making threats 
unless we are prepared to back them up, and we should be wary of 
declaring objectives that we have neither the will nor capacity to 
achieve. Above all, we should be mindful of the logical consequences of 
our strategy and think those through before launching on a course that 
could well have the opposite effect of what we intended. For all these 
reasons, I applaud the sponsors of the bill and the members of this 
committee for seeking to deliberate on these weighty matters.
    The rigorous enforcement of the Iran nuclear deal is the first 
element in a push-back strategy. That will likely be unwelcome to some 
members of this committee, but in my view, it is essential to its 
success. Whatever the perceived shortcomings of the JCPOA, it has 
succeeded in creating a vital 10-year window in which the region is not 
threatened by Iranian nuclear capabilities and the nuclear arms race 
that they would inevitably trigger. Nothing is easy about countering 
Iran in the conflict-ridden Middle East, but everything becomes easier 
if we do not have an Iranian nuclear threat to contend with at the same 
time.
    As long as the Iranians strictly adhere to the agreement, the 
United States and its regional allies will have gained vital time to 
develop and implement the other elements of the push-back strategy. 
That time is essential because the Iranians have entrenched themselves 
across the region. They will not easily or quickly be extracted, if at 
all. We will have to be prepared to play a long game and the JCPOA 
makes that possible.
    The second element in the push-back strategy is support for the 
Iraqi government of Haider al-Abadi and the Iraqi Armed Forces as they 
campaign to defeat ISIS and regain control of Mosul and the Sunni 
regions of Iraq. Since the toppling of Saddam Hussein opened the gates 
of Babylon to Iran, Iraq's Shia majority has fallen under the heavy 
influence of Iran.
    Eliminating that influence is not an achievable or necessary 
objective given the historic and religious ties between the neighboring 
Shias of Iraq and Iran. But providing an effective counter-balance to 
Iran's influence in Baghdad is eminently achievable since it is 
welcomed by the current Iraqi government, which was not the case under 
the previous Maliki government.
    For years, that effort has also been hobbled by the unwillingness 
of Saudi Arabia and the Gulf Arab States to engage meaningfully with 
the Iraqi government, which they branded as ``Persian.'' But the recent 
visit of the Saudi Foreign Minister to Baghdad, and the Saudi effort to 
engage with the Sunni tribes of Iraq, presages a new approach which 
needs to be encouraged and sustained.
    This will be particularly important, as the elimination of ISIS in 
Iraq will generate a huge post-conflict reconstruction challenge in 
Mosul and the other liberated Sunni regions. If Iranian-directed Shia 
militias fill the vacuum created by the defeat of ISIS, Iran will have 
achieved one critically important step in establishing a land bridge 
from Iran through Iraq to Syria and Lebanon. It will also have created 
the conditions for the eventual return of Sunni jihadist groups like 
ISIS and its Al Qaeda precursor, perhaps in an even more extreme form, 
because the Sunnis of Iraq will not accept Shia dominance of their 
lives. That is why Sunni State support for a major American-led, post-
war reconstruction effort is essential.
    The third element in the push-back strategy is effective promotion 
of a political resolution of the civil war in Yemen. The Trump 
administration is currently considering stepping up military support 
for Saudi Arabia and the UAE in their 2-year long military campaign in 
Yemen.\2\ This makes sense only if it is wedded to a diplomatic 
strategy for ending the war, which has already caused thousands of 
civilian casualties and vast human suffering. Otherwise, the United 
States will be sucked into the Yemen quagmire like so many outside 
powers before us.
    Greater U.S. military engagement also needs to be weighed in the 
context of the larger regional strategy that this Committee is calling 
for. Yemen is a low-cost way for Iran to distract the United States and 
its Gulf Arab allies from the much more strategically consequential 
challenges in Iraq and Syria. Already, some 50 percent of Saudi 
Arabia's military capacity, and a large part of the UAE's, is devoted 
to the Yemen conflict, whereas all that Iran is doing to tie them down 
is to supply the Houthis with military materiel and financial support.
    No doubt, gains on the battlefield can impact the dynamics at the 
negotiating table. In that regard, a successful effort to take control 
of the Red Sea port of Hodeida, could impact the Houthi calculus and 
lead to greater seriousness and reasonableness on their part in the 
negotiations. But American support needs to be conditioned on the 
pursuit of a political solution by our Saudi allies as well.
    The fourth element in the push-back strategy is to reduce Iran's 
influence in Syria. This is by far the most difficult and complicated 
component of the strategy. Developing and implementing it is not helped 
by loose talk about the unrealistic objective of ``pushing Iran out of 
Syria.'' That may well be the desirable end-state but we need to 
recognize that neither we, nor the Russians, have the will or capacity 
to achieve it in current circumstances.
    Iran has developed a formidable presence on the ground in Syria. 
With encouragement from Asad's Alawite-dominated regime, the Iranians 
have penetrated the institutions of government that remain in Syria. 
They have also embedded some 25,000 forces in the government-controlled 
areas of western Syria. Those forces comprise some 5,000 IRGC, Basij 
and Iranian Army elements that provide the commanders, advisors and 
trainers of the larger Shia militias; some 3-5,000 highly trained 
Hezbollah fighters from Lebanon; and some 20,000 Shia militiamen 
recruited from Afghanistan and Pakistan. These forces are significantly 
larger than what is left of the Syrian army or the Russian forces now 
deployed there. They were responsible for the Asad regime's 
reconquering of Aleppo and they remain in control of much of the areas 
in the north-west where they are taking responsibility for the well-
being of Syrian citizens there, much as Hezbollah did in southern 
Lebanon.
    The Iranian-controlled presence is bolstered by two factors that 
must not be ignored in developing the push-back strategy:

   The Iranian-Asad alliance, which was forged by Asad's father in the 
        1980s, when Syria was the only Arab State to side with Iran in 
        the decade-long Iraq-Iran war. Since then, Asad's son has 
        become ever-more dependent on them for his survival, no more so 
        than in the present. Asad will not demand their departure 
        because it will lead to his demise. And Russia will therefore 
        not demand it either because they fear the consequences of the 
        collapse of the Asad regime more than they value any putative 
        partnership with the United States.

   Iran's ``core interest'' in retaining a foothold in Syria because 
        it is the lynchpin of its wider hegemonic strategy. If it loses 
        that foothold, it will seriously jeopardize Hezbollah's control 
        of Lebanon, the crown jewel of Iran's regional position. That 
        means Iran will mightily resist any effort to force it out of 
        Syria and has considerable ability to do so. The United States 
        has never viewed Syria as a core or vital interest and we 
        therefore do not have the will or interest in deploying the 
        forces necessary to achieve that objective.

    Russia does have a long-standing strategic interest in Syria 
because of its port facilities for the Russian navy and its role as a 
platform for the projection of Russian influence across the region. 
Russian and Iranian interests overlap in Syria in their common 
objective of maintaining the Asad regime in power. But they are also 
rivals for influence in Damascus, and Asad relishes the opportunity to 
play them off against each other. Exploiting that rivalry has 
advantages for an American strategy of reducing Iranian influence in 
Syria. However, that game has strict upper limits. Russia will not 
cooperate in the undermining of its own influence in Syria for the sake 
of a partnership with the United States. It did that in the 1970s, 
which led to the loss of its presence in Egypt. It will not repeat that 
mistake. The idea that Russia will force Iran out of Syria is therefore 
a dangerous fantasy. And the idea that we should pay for such a fantasy 
by removing the Ukraine sanctions on Russia would constitute strategic 
malfeasance, given the impact that would have on our allies in Europe, 
particularly in Eastern Europe.
    We should therefore set more modest objectives. We can, for 
example, press Russia to deny Iran port facilities in Syria. An 
Iranian-controlled port would enable Iran more easily to ship weapons 
to Hezbollah. That would severely exacerbate the conflict between Iran 
and Israel, something Russia has an interest in avoiding. Similarly, we 
should support Israel's insistence that Russia press Iran and Hezbollah 
not to send their forces south to the Golan Heights. That would risk 
creating one front across southern Lebanon into the Syrian Golan, which 
would constitute a highly destabilizing threat to our Israeli ally.
    Finally, as in Yemen, we should do what we can to promote a 
political resolution of the Syrian civil war, one that leads eventually 
but inevitably to Asad's departure. In that context, we should insist 
that one requirement of the political settlement should be the 
departure of all foreign forces. That principle was incorporated into 
the Taif Agreement, which ended the Lebanese civil war and eventually 
resulted in the peaceful departure of Syrian forces from Lebanon. 
Syrians, who do not want Iranian-controlled militias dominating them in 
a post-conflict era, will welcome inclusion of that principle. And it 
will provide us with the legitimacy to demand their eventual departure.
    The fifth element in the push-back strategy it to concert the 
capabilities of our regional allies in a regional security framework 
that can sustain a long-term, burden-sharing effort. The United States 
is fortunate to have capable regional strategic partners in Israel, 
Turkey, Saudi Arabia and the Sunni Arab States, that share a common 
interest in countering Iran's threatening ambitions. Each, however, has 
its own strategic perspective. Our NATO ally Turkey, for example, has a 
strong interest in preventing Iran from establishing a land bridge 
across northern Iraq to Syria and has moved ground forces into Iraq to 
block that prospect. But it will not cooperate in any effort that 
strengthens the Syrian Kurds. Similarly, Egypt sees Iran as a regional 
competitor but does not want to exacerbate the Sunni-Shia sectarian 
conflict for fear that it will advantage Sunni extremists. An effective 
strategy will therefore need to be based on a variable geometry that 
builds on the common interest of countering Iran while allowing for 
specific differences that may condition the involvement of some of our 
regional partners.
    Nevertheless, there is a new readiness across the region to work 
together, despite their differences. For example, Turkey has just 
normalized relations with Israel; the Gulf States are developing their 
security relations with Israel; and Egypt's security cooperation with 
Israel is unprecedented. It is time to test the readiness of our allies 
to come together in a regional security arrangement that will allow us 
all more effectively to coordinate our efforts against Iran.
    The sixth element of the push-back strategy is to lay the 
foundations for negotiations with Iran about its ambitions and behavior 
in the region. The Iran nuclear deal, notwithstanding its shortcomings, 
demonstrates that it is possible to reach enforceable agreements with 
Iran, using sanctions and concerted diplomacy as leverage to achieve 
our objectives. This sanctions bill, complemented by the five other 
elements of the push-back strategy, if successfully developed and 
implemented, provide a basis for engaging Iran in a negotiation that 
focuses on:

   Iran's efforts to export its revolution and interfere in the 
        domestic affairs of Arab States across the region

   Iran's destabilizing regional activities and its sponsorship of 
        terrorism

   Iran's ICBM program and its nuclear activities after the expiration 
        of the JCPOA.

    Negotiations are not a concession to Iran, nor a sign of weakness, 
as long as they are backed by sanctions and the other elements of the 
strategy that I have outlined here, and as long as they are fully 
coordinated with our regional allies. But they represent a way to 
signal to Iran that we and our regional allies are willing to have a 
constructive, normalized relationship with it, even recognize its 
status as a regional power, if it is willing to change its troubling 
behavior in fundamental ways. Indeed, if the Iranians prove willing to 
engage in a serious negotiation about these issues, we should even be 
prepared to signal to them a willingness to consider lifting our 
bilateral sanctions, i.e. putting a carrot as well as a stick on the 
table.
    Mr. Chairman, it should be clear from this testimony that 
developing an effective strategy for dealing with the threats posed by 
Iran is a complicated and difficult challenge. But the dangers of not 
doing so are clear and present. I applaud the committee for taking on 
the task.
------------------
Notes

    \1\ ``Iran Linked to Deaths of 500 U.S. Troops,'' Military Times, 
July 14, 2015. http://www.militarytimes.com/story/military/capitol-
hill/2015/07/14/iran-linked-to-deaths-of-500-us-troops-in-iraq-
afghanistan/30131097/.
    \2\ Karen de Young and Missy Ryan, ``Trump Administration Weighs 
Deeper Involvement in Yemen War,'' The Washington Post, March 27, 2017. 
https://www.washingtonpost.com/world/national-security/trump-
administration-weighs-deeper-involvement-in-yemen-war/2017/03/26/
b81eecd8-0e49-11e7-9d5a-a83e627dc120_story.html?hpid=hp_rhp-top-table-
main_usyemen-720pm%3Ahomepage%2Fstory&utm_term=.a313a0a0eb67.

    The Chairman. Thank you.
    As is the case, I typically defer and retain some time for 
interjections. I would like to just make one--Mr. Indyk, your 
comments made me think about this.
    There was a strong divergence of opinion on this committee 
about the nuclear deal, and each person expressed themselves 
and voted the way they saw fit, and the deal went into play. 
What is pretty remarkable is I am not aware of any committee 
member since the beginning of this year that has called for it 
to be torn up.
    So as we move toward pushing back against Iran, which I 
hope we will do because I think we all realize that this was 
about one thing and that was a nuclear agreement, the fact is 
that the committee has stayed together on not ripping the 
agreement up but enforcing it, I would say radically, some 
people would say extremely. And I appreciate the comments that 
our witnesses have made.
    So we have a beginning base here where I think people 
understand we are collectively together on enforcing. We would 
like to push back against Iran's other activities. And we 
meticulously, in this bill that has been introduced, stayed 
away from anything relative to the nuclear agreement.
    And then I think we all understand that, down the road, we 
still have work to do, that after year 8, in particular, you 
start diminishing down to a zero breakout time. So as a 
committee, we have additional work to do, if we really wish to 
keep them from getting a nuclear weapon at some point.
    But I just say those things to say we have a pretty good 
point of beginning reference here, and I thank you for 
highlighting that. Hopefully, we will work together to again 
push back against the many other activities that are taking 
place in the region and, as has been mentioned by both 
witnesses, diplomatically work very closely with our allies 
and, let's face it, not so much allies, all of whom are 
involved in this deal to make sure that Iran never gets a 
nuclear weapon.
    With that, Senator Cardin?
    Senator Cardin. Let me thank both of our witnesses. I found 
your testimonies to be very helpful.
    You both agree that the United States should not 
unilaterally withdraw from the JCPOA. I see that in your 
statements and your written comments, and I agree with that. I 
think that would isolate us diplomatically.
    You both agree that the United States must be actively 
engaged in diplomacy. We see that in Iraq particularly, as Iraq 
is reaching a critical point with Mosul falling. And if Iraq's 
central government is not able to fill the void of confidence 
of all communities and security of all communities, we know the 
Shia militia and Iran will try to develop more influence in 
Iraq, allowing, enabling Iran greater influence in the region 
than they have.
    It seems to me the immediate issue about Iran's influence 
in that region is Russia. Russia is facilitating Iran in Syria. 
Russia is permitting Iran to finance terrorist operations in 
that region. And when we talk to our Gulf partners, Yemen, for 
example, Iran is very much involved in creating that 
instability.
    Mr. Indyk, you indicated that it would be fantasy to give 
Russia relief in regards to Ukraine in exchange for their help 
in Syria because they will not deliver in Syria. At least that 
is the implication.
    So what should we do in regards to Russia's support for 
Iran? Is there any way that we can divide that and be able to 
minimize Iran's support from Russia?
    Ambassador Indyk. Thank you, Senator Cardin.
    Michael Singh referred to the fact that Russia and Iran are 
not exactly on the same page. I think we need to understand 
that, from the beginning. They have a common interest in Syria 
in propping up the Assad regime, but they are rivals for 
influence in Syria.
    The Iranians, as I have described it, have a core interest 
because of the way that that advantages everything else that 
they are trying to do in the region to establish their 
hegemony. The Russians have a long-time strategic interest in 
Syria, one which, by the way, we never really challenged 
because we did not see it as much of a threat to our own 
strategic interests. They have port facilities there. They now 
have airbases.
    And this has proved to be important to them, not only in 
terms of their objectives in Syria, which is to ensure that the 
regime survives and there is no chaos that they fear would come 
from the regime's overthrow that would spread and infect the 
Muslim populations in their own country.
    So they have a very real interest and real concern there. 
But they have no particular interest beyond the way the 
Iranians can help keep the Assad regime in power. They have no 
particular interest in helping Iran in Syria. And certainly, if 
there were to be an effective ceasefire, which is coming apart 
at the moment, but were they able to effect that and the 
political process could be put in place, then I think that the 
competition between them would accelerate.
    Senator Cardin. Let me just interrupt on that. I agree with 
you. I understand Russia has limited interest. We heard they 
have limited interests in protecting the Assad regime. But it 
has been going on for years, and they are still there.
    So they may have limited interests in dealing with the 
objectives of Iran, but they are partners in this. How do we 
divide them?
    Mr. Singh, do you have a suggestion here?
    Mr. Singh. I do not disagree with Ambassador Indyk. I think 
it is going to be awfully hard.
    I agree with the proposition that, in the long run, they do 
not have the same interests. And we see that Russia is trying 
to expand its influence in the region not just in Syria but 
sort of peppering its influence throughout the region, as we 
see with these Russian special forces who are in Egypt now, for 
example, reportedly.
    But I think right now, and for the foreseeable future in 
that conflict in Syria, they need each other operationally. I 
think for Russia, Iran is the ground force. And as we know 
ourselves, if you are only putting in an air force, you need 
also a ground force to go in and sort of direct things there 
and hold things.
    And for Iran, I think that the Assad regime would have 
fallen were it not for Russia's air intervention and artillery 
intervention.
    So they need each other operationally for now, even if they 
do not have the same interests, and that poses a real obstacle 
to any effort to split them.
    Senator Cardin. So we have defined the problem. We do not 
know a strategy to unlock their cooperation. That is a very 
good point, that they need each other. And for the foreseeable 
future, there is very little that is going to change that 
equation.
    Is that what we are all saying?
    Mr. Singh. I would say though that is for now. That is for 
as long as they are in this phase of the conflict in Syria. 
Perhaps as this conflict develops, for example, as our plans 
towards Raqqa develop and so forth, that will change.
    And there I agree with what Ambassador Indyk said, that 
ultimately, the way to drive a wedge between Russia and Iran is 
by focusing on Iran's desperate need, I think, for the Assad 
regime to remain in place and Russia's lack of that need, for 
example. I think we can focus on removing all foreign forces 
from Syria, which is something Iran cannot accept but Russia 
perhaps can be more open to.
    Senator Cardin. I will just add one last point. We could 
also concentrate on what we do about Russia. That is why there 
is a bipartisan bill here to put more pressure on Russia to 
make Syria a heavier cost for them in their partnership with 
Iran.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, both of you, for your time and testimony today.
    Mr. Singh, in the beginning of your testimony, you talked 
about areas in which Iran has grown in strength because of the 
JCPOA. You mentioned some of them in your written testimony.
    Could you perhaps talk about them openly in the hearing, 
ways Iran has been strengthened as a result of the JCPOA in a 
fashion the United States is not comfortable with?
    Mr. Singh. Of course, Senator. I would be happy to do so. 
And I would say in the wake of the JCPOA, rather than directly 
because of the JCPOA, perhaps, just to be a little bit more 
cautious about it. But I think we can see this across the 
region.
    In Lebanon, you have Hezbollah, which is an Iranian proxy. 
It has a stranglehold now on the government. Our efforts to 
sort of promote the sovereignty of the Lebanese Government I 
would say have fallen a bit by the wayside over the past 
several years.
    In Syria, I think it is really the Islamic Revolutionary 
Guard Corps which is calling the shots for the Assad regime, 
bringing in foreign fighters from Afghanistan and Pakistan, and 
facing, frankly, very few obstacles to doing that.
    In Iraq, you have these deeply entrenched Iranian-backed 
militias who are, I think, a big threat to the sovereignty of 
Baghdad and will be a real challenge post-liberation of Mosul, 
as perhaps these communities start eyeing one another warily.
    In Yemen, as has already been mentioned, we have Iranian 
forces not only providing arms to the Houthis by sea and by 
land but also, according to our military forces, connected to 
these anti-ship cruise missile attacks on U.S. forces and 
commercial shipping in the Bab al-Mandab Strait, which to me is 
a problem which we cannot pay enough attention to, because that 
is just an absolutely critical maritime chokepoint.
    We have seen missile testing from Iran in absolute defiance 
of Resolution 2231, which enshrines the JCPOA. And while the 
United States has responded with some sanctions, we have seen 
basically silence from the rest of the world. Even though they 
urge us to keep up our end of the deal, we have not seen them 
too eager to enforce Resolution 2231 against Iran.
    Senator Gardner. If I could interrupt right there, because 
you mentioned the strategic convergence and then, of course, 
the strategic divergence. And both of you, Ambassador Indyk as 
well as you, Mr. Singh, talked about our allies and the way we 
see Iran versus perhaps some others, and the divergence that we 
now see.
    Why the divergence when you talk about the activities that 
you have seen and the bad behavior, whether it is missile 
testing, further exploration of the missile program? Why the 
divergence?
    Mr. Singh. Well, I think when it comes to the nuclear 
threat, again, we could all sort of agree that nuclear 
proliferation was a bad thing.
    When it comes to terrorism, though, I think for many of our 
allies in, say, Europe or certainly Russia and China, they are 
less likely to sort of take the terrorism threat coming from 
Iran seriously. They certainly take seriously the threat of 
terrorism from, say, ISIS and jihadist groups, but they tend to 
dismiss it from Iran, in part because they do not see it as 
much on their soil.
    Now, actually, there has been Iranian-sponsored terrorism 
on European soil. For example, there was a Hezbollah attack in 
Bulgaria, I believe, just in the past few years. They also I 
think take the missile threat less seriously for a variety of 
reasons, frankly.
    This is why I say, when we do approach these allies, I 
think we have to approach them in a way which is not simply 
focused on let's push back on Iran but it is focused on the 
broader region and the impact that Iran's activities have on 
issues like Syria or, say, human rights, where they, frankly, 
may show more interest.
    Senator Gardner. And if you go back to a week ago, March 
21, 2017, the United States sanctioned 30 entities and 
individuals in relation to the Iran, North Korea, and Syria 
Nonproliferation Act. Iran claimed that these sanctions 
violated the JCPOA.
    Could you talk a little bit about that, any step we take, 
nonnuclear sanctions undermining the JCPOA, at least in their 
belief?
    Mr. Singh. They will claim this, I think, for every step 
that we take, that we are violating the JCPOA, because they 
know that this is an effective negotiating tactic with our 
partners. It will get others in Europe and elsewhere to put 
pressure on us not to take these steps even though these are 
steps which clearly do not violate the JCPOA. I think that 
needs to be recognized very clearly.
    And I think it is also their attempt to use leverage 
against us, to get us to be cautious, to get us to maybe dilute 
some of the steps we would have otherwise taken and to sort of 
take it easy on things.
    They are trying to extract as much as they can out of this 
deal. And, frankly, we should expect them to do that.
    Senator Gardner. The Iranian Revolutionary Guard, do you 
believe that the United States should designate them as a 
foreign terrorist organization?
    Mr. Singh. I tend not to think that. I do believe that we 
should punish them and sanction them for their support for 
terrorism, but I am wary about sort of picking and choosing 
good guys and bad guys within the Iranian regime. I think that 
we need to recognize that Iran----
    Senator Gardner. There are good guys and bad guys within 
the Iranian regime.
    Mr. Singh. Well, I think, we need to recognize that Iran is 
a state sponsor of terror, and, from my point of view, Iran 
will use various organs of its government in pursuit of these 
goals, supporting terrorism, for example, the Ministry of 
Intelligence and Security, the Basij forces and so forth.
    And I am always a bit wary when folks seem to think, well, 
maybe the Revolutionary Guard is somehow a rogue element that 
is not carrying out state policy. To me, our real problem here 
is state policy, and I think we need to remain focused on that.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin, for convening this important hearing and our two 
compelling witnesses, and for your leadership in making 
possible bipartisan legislation in this area.
    As has been thoroughly reviewed by our witnesses today, 
despite the JCPOA, Iran continues its bad behavior, to preach 
anti-Semitism and call for the destruction of Israel, to build 
its military arsenal and support terrorism throughout the 
region, to conduct ballistic missile tests in violation of 
numerous U.N. Security Council resolutions, and to detain 
Americans and violate the human rights of its citizens and 
Iranians.
    These are not the actions of a responsible state seeking to 
rejoin the international community, and it is because of these 
provocations that we need to take stronger action to disrupt 
their destabilizing actions and their regional alliances.
    So I was glad to join with 13 colleagues, both Republicans 
and Democrats, to introduce new, tougher sanctions language, as 
you have reviewed.
    Let me ask, if I could, first, Mr. Singh, about freedom of 
navigation. Iran has increasingly harassed both American and 
allied vessels in the Persian Gulf.
    What is their goal? What is their purpose behind these 
incidents? And how do we respond in a way that does not risk a 
miscalculation or inadvertent clashes between American and 
Iranian ships?
    Mr. Singh. Well, you are absolutely right, Senator. There 
were 35 of those incidents in 2016. According to our Navy, the 
Iranians are getting more aggressive and less predictable.
    I have had the honor and privilege of actually sitting with 
our sailors as they try to sort through these threats. I can 
tell you, if it was not for the professionalism of our Navy, 
things would be much, much worse.
    Why does Iran do it? I think they do it for a number of 
reasons. Part of it is just chest-thumping. They want to show 
that they are sort of confronting the United States in ways 
which they can then go and sort of splash over sort of the 
Internet and market to show that they are to be taken 
seriously.
    In part, they can do it because they know that we will be 
professional. They have a long history of interacting with our 
Navy. They know that we are not rash in our actions, and they 
are taking advantage of that, to an extent.
    What can we do? I think that we need to be creative about 
the way that we conduct our sort of freedom of navigation 
operations, challenging not only what Iran is doing in terms of 
confronting our Navy but challenging some of their illegitimate 
maritime claims, because they claim territorial seas there 
which we and others do not recognize.
    And you are right. We have to be careful about escalation. 
But I think we can be more creative than we have been.
    Senator Coons. Thank you, Mr. Singh.
    Let me ask further, if I could, Mr. Indyk, about 
interdictions and Americans detained in Iran.
    We have been successful both directly and with some allies 
in some interdictions of weapons flows into the Houthis and 
regionally, Syria, Iraq, Lebanon, as well as into Yemen. What 
can Congress do to support enhanced and more effective 
interdictions?
    And my last question, Mr. Indyk, and I would be interested 
in Mr. Singh's response as well, do you believe the 
administration taking a harder line on Iran will imperil 
American citizens detained in the country? And what more could 
we be doing to advocate for the release of Bob Levinson and 
other Americans currently detained?
    Ambassador Indyk. In terms of what Congress can do, I do 
think that you are already doing what is necessary in terms of 
sending a strong signal for opposition to what Iran is doing in 
the region.
    As far as the interdiction is concerned, that is ongoing, 
as you pointed out. I think that we should certainly have as 
part of the pushback strategy an interdiction strategy designed 
to cut off any kind of arms supplies to any of the different 
proxies that the Iranians are using.
    And the operation now in Hodeidah, which the administration 
is now considering giving greater support to, that is the port 
on the Red Sea in Ethiopia, I think has a strategic logic to 
it. Denying Iran the ability to access that port is very 
important.
    So I think there are a range of things we can do in terms 
of stepping up the interdiction. And there are other countries 
in the region with naval capabilities who are also able to do 
that, and that is in the context of a regional approach in 
which we concert our activities with our regional allies, which 
is something I also suggested.
    Senator Coons. Any thoughts on Americans detained? Any 
thoughts about hostages or others?
    Mr. Singh. Let me just say, on interdictions, very quickly, 
two things which I would suggest are, number one, interdictions 
are really based on intelligence more than anything else. And I 
do think we need to be sure that we remain laser-focused on 
intelligence-gathering on Iran. There are a lot of competing 
priorities in the region. Maybe that means expanding the 
overall sort of resources for intelligence in the Middle East. 
But without the intelligence, you cannot do the interdictions.
    I think we also need to press the executive branch to 
publicize interdictions. We used to do roadshows when we would 
catch Iranians supporting Iraqi militias, the Taliban, and so 
forth. I would like to see us do more of that, frankly.
    On American citizens, look, I would say I think we had, 
relatively speaking, an accommodating policy toward the 
Iranians over the past several years, and there were a lot of 
American citizens who were taken hostage by the regime. Part of 
that is due to the fact that a lot of that is driven by 
domestic Iranian factors. But I do not think, frankly, that we 
do ourselves any favors by trying to be accommodating and 
thereby sort of maybe helping American citizens. Actually, I 
think when Iranians believe there is a price to be paid for 
taking hostages, then they might think twice about doing it.
    Senator Coons. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Thank you, gentlemen, for your appearance here today and 
testimony to these issues.
    Mr. Singh, in your testimony, you speak to the importance 
of appointing a single official at State to oversee all aspects 
of Iran policy, from JCPOA implementation to more broadly our 
policy with respect to Iran and throughout the region, the need 
for an integrated, coordinated strategy running through one 
person over at the State Department.
    Why is it, our current State Department as organized, is 
not able to produce a single, integrated strategy with respect 
to Iran? Speak to the deficiencies, as you see them, in the 
current org structure over at State that prevents that.
    Mr. Singh. Sure. Well, you know, we do have a tendency to 
appoint envoys or sort of special officials for this or that 
aspect of not just Iran policy but policy in general. So we 
have a coordinator for JCPOA implementation, for example.
    But what we often lack is then a sort of official who can 
oversee all of that, and not only oversee all of Iran policy 
but then connect the dots with Iran policy, counter-ISIS 
policy, maybe what we are doing in Syria. You would like that 
person to be maybe the Assistant Secretary of State for Near 
Eastern Affairs. But it turns out that person is often 
disempowered, and maybe other pieces of the policy are over at 
the White House or DOD and so forth.
    Why can't we do it? It is hard to answer that question. In 
part, it is just sort of the managerial choices of Secretaries 
of State or administrations.
    Senator Young. And, Mr. Indyk, I will be interested, based 
on your experiences from 1997 to 2000 as Assistant Secretary of 
Near Eastern Affairs. I know you can speak to this.
    But what managerial choices might be made differently by a 
Secretary of State, through the President's direction, to help 
facilitate change in this area?
    Mr. Singh. Well, what I personally would like to see is I 
would like to see an official at the State Department, say the 
Assistant Secretary for NEA, have authority over Iran policy. 
They could have people under them, for example, who coordinate 
the JCPOA or coordinate sanctions and so forth. And then that 
person should report to a pretty well-organized interagency 
process that looks at all of Iran policy that is maybe led by a 
Deputy National Security Adviser or something like that.
    Senator Young. Mr. Indyk, do you agree with that? And 
surely this has been put forward before as an idea, but 
nonetheless, Presidents and Secretaries of State continue to do 
an end-run around the bureaucracy, as it were, and I try not to 
say that disparagingly. There are very competent people at the 
State Department. But there are these end-runs that are created 
around the existing bureaucracy, despite what strikes me as a 
compelling recommendation put forward probably many, many 
times.
    Ambassador Indyk. Well, I was both an Assistant Secretary 
for the Near East and a special envoy for the Palestinian 
negotiations.
    Senator Young. You are well-situated to speak today.
    Ambassador Indyk. Thank you.
    And in this case, as Michael has suggested, I do think that 
Iran policy should be concentrated in the hands of an effective 
and empowered Assistant Secretary for the Near East, and that 
is because that Assistant Secretary has control over all of the 
embassies in the region and all of the staff within the bureau.
    But it is really important that that person be empowered by 
the Secretary of State to be able to implement the policy.
    Senator Young. So why has this not happened? I am going to 
press you a little bit on this. And perhaps you do not know, 
but either of you?
    Ambassador Indyk. Why has it not happened?
    Senator Young. Why have we not empowered our Assistant 
Secretaries to own the regional policy not just in this area 
but in other areas of the world?
    Ambassador Indyk. Well, I think they are way behind in 
terms of making those appointments, and they need to get those 
people in place.
    The Chairman. He means in any administration.
    Senator Young. Across administrations.
    Ambassador Indyk. Oh, in the time that I was Assistant 
Secretary, I am describing a situation that I had. I think at 
the time, different Secretaries of State have different 
approaches, and the proliferation of special envoys is, I 
think, a bad thing, because it dissipates the focus and reduces 
the effectiveness. So I think it is important to empower not 
just the Middle East Assistant Secretary but all of the 
Assistant Secretaries. There is too much to do outside in the 
world for the Secretary of State and the Undersecretaries.
    But the other point is the one that Michael made. There has 
to be a lash up with the White House and the National Security 
Adviser and his deputy because that is where the policy gets 
coordinated across the bureaucracy, and that is essential. The 
strategy needs to be devised in cooperation between those two 
parties in order for it to be effective.
    Senator Young. Very briefly, are there any other 
organizational reforms that this committee should be aware of 
that would facilitate the creation of coordinated, integrated 
strategies in this region and other regions?
    Mr. Singh. I think quite a few. I would have a pretty long 
answer to that, and I will try to be succinct, I guess.
    I know there has been a lot of debate about the State 
Department budget. I am not personally enthusiastic about 
draconian cuts to the State Department budget, but it has 
increased significantly over time. And I think, for the State 
Department to argue for more, it needs to show that it is 
spending its current budget wisely.
    And I think, frankly, if you ask State Department 
employees, and I was Foreign Service Officer for 9 years, they 
are less focused on the budget. Of course, they would love to 
have a bigger budget, as every bureau or agency would. But what 
they are focused on is, do individual employees have 
significant responsibility? Is there room for advancement? Is 
there room for reward if you are doing well? And is the agency 
overall working well?
    And to me, we have taken away from that over time. So, for 
example, when we had the second Deputy Secretary of State 
position, which I understand the new administration will not 
fill, to me that gave sort of supporting services a seat at the 
policy table, and that was not appropriate. We have, I think, a 
lot of bureaus that have been created at the State Department, 
which maybe are not functioning well, maybe are not necessary 
and should be folded in elsewhere.
    And when you create bureaus, remember, you are not just 
sort of focusing on an issue but you are creating sort of a 
stress on shared services, on embassies overseas, because all 
those folks want to go overseas.
    And there is much more to this answer, but I think there is 
plenty that can be done.
    Senator Young. Well, I will look forward to continuing the 
dialogue. I do want to be respectful of my colleagues. Perhaps 
this committee should weigh in when bureaus are created in the 
future.
    Thank you.
    The Chairman. I will say, as my first interjection, we 
pulled up the numbers of envoys. It is more than the number of 
employees I thought we had at the State Department, so it is a 
long list.
    [Laughter.]
    The Chairman. And I think what you all have suggested is a 
very good one, and that is empowering the people who have 
control over these areas and not dissipating their power by 
working an end-run with an envoy that may be working an end-run 
around an ineffective Assistant Secretary. I do not know. But 
if that is the case, changes need to be made, it would seem.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. Good hearing and good 
testimony thus far.
    When I am in the region, one of the things that I often 
hear is a concern by others in countries all around the region 
of being kind of trampled in a proxy war between Iran and Saudi 
Arabia, and they feel like they are under the foot of it and 
they hope that they would one day not be under the foot of it.
    Recently, there have been two different developments that I 
have been interested in, and I would just like you to comment 
on them. One, Iran and Saudi Arabia worked out a deal for 
pilgrims from Iran to come to Mecca for Hajj after this 1-year 
sort of interruption of it. And second, the GCC in December 
decided, and I think Saudi Arabia must have been tacitly 
approving this, that there would be some potential for 
discussion about cooperation between GCC nations and Iran. The 
Iranian President went to Kuwait, I believe, and then the 
Kuwaiti Foreign Minister paid a visit to Iran.
    Talk a little bit about the prospects that you would see 
for GCC cooperation with Iran and whether if not a warm 
relationship at least the temperature and the tension could 
somewhat be abated in that kind of a dialogue?
    Ambassador Indyk. Senator, thank you for the question.
    I think that lowering the flames of sectarian conflict is 
an interest of the United States, if it is possible to do. And 
normalizing relations between our Gulf Arab allies and Iran is 
also a desirable end-state to aim for. But it depends on Iran 
changing its objectives and behavior.
    So in a tactical area of Hajj pilgrimage, which is 
important to the people of Iran, and the Saudis have 
responsibility for the Hajj, they need to find a way to make 
that work. It is both a Saudi responsibility and an Iranian 
Government interest to enable their people to go on Hajj. So in 
a narrow area of common interest, they can figure that one out.
    More broadly, as you suggested, there is a willingness on 
the part of the GCC to actually engage with Iran if Iran is 
prepared to change its behavior. The three points that I made 
about the things that we should engage with Iran to talk to 
them about are the same things that they are talking about. And 
what their real concern is, is that the Iranians are seeking to 
encircle them, destabilize them, using Shia populations where 
they can, Iraq and Bahrain being the most obvious examples.
    So I think that there is very much a desire on their part 
to move out, if they can, from this endless conflict, which has 
been going on for decades now and causes a huge amount of 
tension in the region and disruption. But they feel very 
strongly that unless Iran understands that it is not going to 
get away with this, they are not going to be able to engage 
with them.
    That is why I also think they will not oppose us engaging 
with Iranians, as long as it is part of a push-back strategy 
because that is consistent with them, and as long as we 
coordinate with them rather than do it behind their backs.
    Senator Kaine. Mr. Singh?
    Mr. Singh. Sure. I agree with a lot of what Martin said.
    I do want to say, though, that I am skeptical about this 
sort of premise of an Iran-Saudi Arabia rivalry in the region. 
Certainly, there is a longstanding rivalry between Iran and the 
Gulf States that predates the 1979 Islamic Revolution, but it 
is important to bear in mind that it is not just the Gulf Arabs 
but also the Turks, the Israelis, most of Iran's neighbors who 
have a lot of problems with Iran. And I think that is largely 
because of Iran's strategy for pursuing its objectives, for the 
objectives themselves and for the strategy of going about its 
business, because Iran does engage in proxy warfare, political 
subversion, and really seeks as an aim to weaken the 
institutions and weaken the sort of security state of its 
neighbors.
    I think a lot of what Iran is doing, for example, in Yemen 
is duplicating its strategy in Lebanon where it is trying to 
create a sort of security preoccupation for an adversary that 
would otherwise maybe be focused on Iran.
    So I agree with Martin that they will try to find some 
stability. They are neighbors. They do not want to live in a 
state of constant tension and conflict. But until Iran's 
strategy changes, I do not see any of this going away.
    And bear in mind, just one last thought, that Iran does 
not, I think, see Saudi Arabia as its main rival. It sees the 
United States as its main rival in the region. That is how I 
think Iran conceives of itself. So it is really trying to push 
back first and foremost on our presence and influence in the 
region.
    The Chairman. Senator Portman?
    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
holding the hearing.
    Mr. Singh, you noted in your testimony something I thought 
was interesting, which is that you believe that the Iranian 
nuclear program is dangerous because Iranian foreign policy is 
dangerous, and as I look back over what happened over the last 
several years, it seems to me that one of the mistakes the 
previous administration made was failing to link the 
negotiations over an Iran deal with other issues that are 
unrelated, not to the weapons program, but to creating 
instability in the region. And we have talked a lot about that 
today.
    At the time, I remember the Obama administration arguing 
that, if we could just get this agreement done, then we would 
be able to have leverage over Iran on these other issues and 
hold them accountable. I think just the opposite happened, to 
be frank with you. I think because we were so afraid they were 
going to walk away that we pulled back, in terms of holding 
them accountable on nonnuclear behavior.
    I just wonder if you could give us your sense of what we 
should do now. You talked about several ideas, but I look at 
what is happening in Yemen, you talked about proxy wars. You 
look at Hezbollah. Frankly, I think the immediate danger to the 
region is not nuclear. It is conventional and specifically 
Hezbollah and Israel.
    I also look at what is happening in the sea lanes. You 
mentioned that today. You talked about some new issues outside 
the Straits of Hormuz and what is happening with them harassing 
our naval ships and also commercial vessels, certainly the 
missile testing, all of which has just continued unabated. And 
there has not been any leverage that has been applied, based on 
the agreement.
    So we have a new administration. We have a fresh start. 
Again, you have laid out various ideas. I am going to challenge 
you both. Give us the two most important ideas that each of you 
have to deal with the nonnuclear behavior in the region.
    Mr. Singh. Well, Senator Portman, let me say, first, I 
agree with your analysis. I think one of the most important 
ideas we could have for pushing back on Iran in the region is 
to sort of reverse the paradigm through which we have 
approached this issue for the last 8 years, I would say. I 
think that Iran was inappropriately seen as primarily a 
nonproliferation problem.
    And in a sense, we, as I said, viewed Iran policy through 
the lens of the nuclear negotiations. It is that not the 
nuclear issue is not important. It is absolutely critical, but 
largely not just because of proliferation but because Iran is 
such a threat to the region.
    And I think we now need to reverse that. We need to see the 
nuclear issue and the JCPOA through the lens of our efforts to 
counter the broader threats that Iran poses. So we cannot 
subordinate our efforts to push back on Iran to any desire to 
preserve the JCPOA. I think we should want to preserve the 
JCPOA for a lot of reasons that have already been mentioned, 
but not if it means having to act against our own interests, 
not if it means having to refrain from addressing those broader 
threats that Iran poses.
    The second idea is essentially that, again, by doing that, 
by showing our partners in the region, by showing our allies in 
the region that we are not just focused on, say, the ISIS 
threat, we are not just focused on, say, Syria or this or that, 
but we are focused on pushing back on Iran, I actually think 
that that will unlock cooperation at a sort of broader 
strategic level around the region. I think we will get a better 
hearing when it comes to, say, helping Iraq from our allies or 
pushing back on the Assad regime in Syria if they believe that 
we are strategically on the same page as they are.
    Senator Portman. I could not agree with you more. You did 
manage to dodge my question about giving me your top two, so I 
am going to move to Mr. Indyk.
    Ambassador Indyk, you give me what your top two are.
    Ambassador Indyk. Look, the first one is a novel idea of 
having a comprehensive strategy for dealing with Iran's 
challenges in the region.
    Senator Portman. Bringing our partners in, the Gulf State 
countries and others.
    Ambassador Indyk. Yes, but a comprehensive strategy that 
deals with all of the places where they are pushing and 
promoting their hegemonic ambitions.
    Senator Portman. Number two?
    Ambassador Indyk. And number two is to understand where the 
priorities need to be. The two most important places for a 
pushback strategy are Iraq and Syria. There is a real 
opportunity in Iraq because we have something to work with now, 
and our Sunni Arab allies are, for the first time--they 
regarded the regime as Persian and they did not want to deal 
with them. For the first time, they are ready to engage with 
the al-Abadi government and to help with that effort to deal 
with the aftermath of the elimination of ISIS.
    But Syria is much more complicated. We have much less to 
deal with.
    But those are the two most important places where we can 
have an impact and where we can start to take apart Iran's----
    Senator Portman. Listen, I was encouraged to hear what you 
said about the Iraqi Prime Minister being interested in 
actually having some distance from Iran.
    He was here, as you know, last week. We had an opportunity 
to visit with him. I mean, I sensed a little change in the 
attitude as well.
    But on the ground, do you see that? In other words, do you 
see the Shia forces in Iraq, not the Iranian forces, being 
willing to also have some distance? You talked about the 
necessity of Mosul not being a victory for Iran and its 
surrogate forces, but do you see the other Shia community in 
Iraq also being willing to encourage that distance?
    Ambassador Indyk. Well, I think the key is what comes from 
the top. If we have a government that is prepared to look after 
the interests of all of its separate communities rather than to 
favor one over the other, that is a huge advance.
    And in terms of the Shia militias, the Shia community, that 
is an incredibly complicated and delicate issue, because we do 
not need the Shia militias to create problems for us as we 
prosecute the war against ISIS in Mosul.
    Senator Portman. My time has expired, and I do not want to 
hold my other colleagues up, but I look forward to following up 
with you on that particular issue.
    Thank you, Chairman.
    The Chairman. Thank you. Before turning to Senator Merkley, 
there are 54 envoys, special envoys. Most of them are vacant. I 
know each person here probably has their special one they would 
like to see reinstated, but maybe a good starting point would 
be for all of them to remain vacant for a while.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    The question I would like to have you all elaborate on is 
it seems to me there is a disconnect between America's position 
and the U.N. resolutions regarding ballistic missiles. Our 
position really is that development of medium-range missiles or 
longer range missiles are directly a threat, a threat to the 
region. And we are developing legislation for sanctions that 
speak specifically to ballistic missile programs.
    But if we look at the U.N. resolutions, the U.N. resolution 
is kind of, well, not so clear. It ``calls upon,'' rather than 
requiring, Iran to refrain from conducting missile tests. And 
then it has a provision that refers to ballistic missiles that 
are designed to carry nuclear warheads. And that, by the way, 
is a step back from the previous U.N. resolution, which said 
``ballistic missiles capable,'' which is more of a reference to 
throw-weight.
    So while we are focusing in on the ballistic missiles as 
inherently a threat, the U.N. has had this design to carry 
nuclear weapons or warheads language.
    And so to what degree did we attempt to pursue the pure 
opposition to the ballistic missiles program itself? Did we not 
have that support at the U.N.? To what degree do our allies 
share our view versus the U.N. language view? And how will that 
affect our ability to bring the international community 
together in our effort to oppose the Iranian ballistic missile 
program?
    Mr. Singh. Well, Senator, you are absolutely right. 
Resolution 2231 weakens previous international sanctions 
against Iran missiles in the two ways you mentioned and then, 
of course, by making temporary the ban on helping Iran with its 
missile program. That will expire 8 years from the 
implementation of the JCPOA, so I think in 2023. That in a way 
is the most critical piece because if Iran wants an ICBM, it 
will need international assistance, and under this resolution 
perhaps could get that international assistance starting in 
just now 7 years.
    We fought, I mean, in the mid-2000s, I can tell you, I 
cannot really say whether the Obama administration pressed to 
have this in the negotiations. I think they did at first and 
then dropped it. We pressed very hard in the initial 
resolutions, 1696, 1737, and so forth, to get missiles into 
these resolutions, because we saw, in part as a result of our 
North Korea experience, that missiles really cannot be divorced 
from a nuclear program.
    There was pushback against that by allies in Europe, 
Russia, China. Remember, Russia and China are the ones 
supplying this stuff to the Iranians, as well as the North 
Koreans who, of course, were not part of that process. And we 
faced that pushback, and I imagine that, today, you will see 
the same sort of pushback not only from Russia and China but 
maybe also from European States.
    Why is that? Part of that is they simply want sort of 
smooth relations. They want this thing to succeed, and so they 
do not want to sort of add to the existing problems by pointing 
out the sort of nasty things that Iran is doing. That is why I 
think it is important that we take quite a firm and unwavering 
position on it because, you know, down the road, we do not want 
to be in a position with Iran that we are in now with North 
Korea, worrying about that sort of ICBM threat.
    Senator Merkley. Thank you.
    Ambassador Indyk. I will not take up more of your time, 
Senator, because I agree completely with what Michael said.
    Senator Merkley. Okay. Thank you.
    I want to turn then to the additional protocol as part of 
JCPOA and where Iran signed on to the additional protocol but 
has not yet brought it into force.
    What needs to happen there? What should be happening? Are 
they behind schedule? Is it a problem?
    Mr. Singh. I believe, in the JCPOA, Senator, and I do not 
have the text in front of me, that what Iran agreed to do is to 
basically enforce the additional protocol and then, after a 
number of years, seek parliamentary approval, ratification, of 
that additional protocol. So it is effectively sort of putting 
it into practice, but they have not officially ratified it. I 
assume that is meant to sort of mirror whatever sort of 
concessions we are making in the JCPOA.
    The real issue is how will we interpret its additional 
protocol obligations, because in the additional protocol is 
this 24-hour time frame, for example, for IAEA inspectors to 
gain access to suspected nuclear sites. Now some will tell you 
that that is sort of a broad authority. Some will tell you, no, 
that is actually quite a narrow authority and it does not help 
us very much.
    I think it is important that we push very much for the 
former interpretation to become sort of routine, to become 
practice regardless of what the legalities may be.
    Senator Merkley. Thank you.
    Ambassador Indyk. If I could, just as a general point, I 
think it may seem obvious, but it is very important to keep on 
pressing on all of these issues all along the way so that the 
Iranians understand very clearly that we are watching, we are 
enforcing in a very rigorous way, because I believe if they get 
any sense that there is any leeway, they will take advantage of 
that.
    Senator Merkley. Thank you very much.
    The Chairman. If I could, Senator Merkley, first of all, 
thank you again for being on the committee. The point you 
brought up about ``called upon'' was an issue that was of great 
discussion when we were going through this. I know that 
Secretary Kerry was in the sales mode, obviously. I mean, I 
understand that.
    But this was something where the committee was very 
concerned that we had weakened this provision. He declared 
that, in fact, no way, they cannot develop, and we can go back 
and look at the record on multiple occasions where it was an 
absolute declarative statement they cannot develop ballistic 
missiles of any kind. And I would love to do that, but this is 
obviously where we have ended up, and I think that is one of 
the reasons the bill that has been laid out is important, or 
something similar to it, to push back on this issue.
    But I appreciate you bringing that up and just know that it 
was a point of major contention as people were trying to decide 
whether they were going to support it or not.
    Senator Paul?
    Senator Paul. Mr. Indyk, I think all religions, to a 
certain extent, are intolerant. Would you say there is a 
difference there in degree of religious intolerance or 
description of religious intolerance between the Shia people of 
Iran and the Wahhabism religion of Saudi Arabia, leaving, I 
guess, for the moment the government out and sort of the degree 
of tolerance between the two branches of Islam?
    Ambassador Indyk. It is a difficult question to answer, and 
I am not an expert. I would just make two general points, which 
is I think that the Wahhabi strain of Sunni Islam is an 
intolerant strain. Shias are a minority within the Muslim 
religion and have suffered and feel persecution as a result of 
that status.
    And so it is interesting, when you ask about the people, 
the Jewish community of Iran is actually, although it suffers 
from second-class citizenship and is constantly being watched 
and, on occasion, there are unjustified arrests and so on, but 
as a community, they are able to function there in a way that 
Jewish communities in the Arab world have not been able to 
survive. So that broad statement----
    Senator Paul. The reason I bring it up is that, when we are 
looking for solutions, if you talk to Iranian Americans in this 
country, they are very open to engagement with Iran, and I 
think they are very open as far as their religious beliefs 
being more tolerant than, I think, the Wahhabism.
    I think also when we look at say, oh, we must push back 
against Iran, it is sort of like who pushed whom first? Who 
provoked whom first? And how far back do you go? We can go back 
tit-for-tat to 800 A.D., to 832 A.D. or something, you know?
    But I think there is some truth, when you look at the 
problems over there, that Iran does see things regionally. They 
are interested in their region of the world, and they push back 
against people who push against them. Who pushed first? I do 
not know.
    In Syria, there are 25,000 Iranian troops. Well, there is a 
whole lot of Sunni folks on the other side that are being 
funded by the Gulf States as well. The same in Yemen.
    Who is right? Who are the better people? Should we be 
involved in any of these skirmishes back and forth? Is there an 
answer?
    You know, we talk a lot about a summit to try to figure out 
the Israel-Palestine issue. It seems to me an even more 
important summit would be a summit between the Gulf States, 
including Saudi Arabia and Iran. Every one of these are proxy 
wars throughout the region.
    But I do say that we get fixated on Iran, and we forget 
about the danger of Wahhabism throughout the world. When I see 
the dangers, I see if you want to get involved in a regional 
war, you will be opposing Iran somewhere in the Middle East. 
But even if you are not there, Wahhabism is teaching hatred of 
America throughout the world and funding it.
    And most of our terrorism has really come from the radical 
brand, and most of the monetary support for radical Islam and 
terrorism throughout the world is coming from Saudi Arabia and 
their money, not from Iran. Iran kills people, certainly. They 
are not any angels over there, but they are killing people in 
their regional wars for their regional interests.
    And I think we forget about that because we get so alarmed 
over Iran that we think Iran is sort of this worldwide menace, 
and they are coming tomorrow to New York. Well, no, 16 people 
from Saudi Arabia came to New York and wreaked havoc on us. And 
I think it is important that we not forget that there is a 
religious intolerance on one side that I think really is 
alarming and needs to be discussed.
    And I do not necessarily think we have the answer. Islam 
will have to figure out their own answers to these problems. 
But I think we should not lose sight of that as we go forward.
    Your comments, Mr. Indyk?
    Ambassador Indyk. Thank you, Senator Paul. I think I would 
make two points.
    The first is, in terms of who started it, I am not sure 
that that is particularly useful. But I can tell you, from my 
own experience, and I am sure Michael has had similar 
experience, that the Iranians are very aggressive in terms of 
trying to export their revolution and trying to promote their--
--
    Senator Paul. They would argue in Yemen that Saudi Arabia 
and the Qataris are quite aggressive in getting involved in a 
war there as well.
    Ambassador Indyk. Look, I am sure they would argue that, 
but they would be wrong.
    But anyway----
    Senator Paul. You do not think there has been Saudi 
aggression in Yemen?
    Ambassador Indyk. No, I think that the Saudis intervened 
because they faced a threat from the Houthis with Iranian-
supplied weapons.
    Senator Paul. You do not think there is a possible----
    Ambassador Indyk. I do not----
    Senator Paul.--effort in bombing a funeral procession? You 
do not think there are repercussions for a thousand years of 
the Saudis bombing a funeral possession in Yemen?
    This is not all Iran, and I am not a supporter of Iran and 
their government, but there are problems on both sides of this 
war. It is messy, and there are sometimes no good people in a 
war.
    Ambassador Indyk. I agree with that. And if you saw my 
testimony, I argue that we need to be actively engaged to try 
to find a political solution to that conflict. But we have been 
actively engaged for a very long time in trying to find a 
political solution to the Israeli-Palestinian conflict. That is 
one I have been heavily involved in, and I tell you that the 
Iranians have been purposefully subverting our efforts.
    What is it their business to be subverting that? If they 
are so tolerant, why would they be opposed to that effort to 
make peace?
    Senator Paul. I am not saying the Iranian Government is. I 
think there is a difference between the Shia form of Islam in 
Iran and the others.
    And I think the best way to look at this is to ask a 
Western woman where you would rather live, under Wahhabism or 
under the Shia regime. And I think the Shia religion is 
actually more tolerant in Iran than the Wahhabism is of Saudi 
Arabia.
    Mr. Singh. Can I chime in?
    The Chairman. You can chime in for one second, yes, sir.
    Mr. Singh. I just want to say one thing, just to remind 
everybody, I am skeptical of the Sunni-Shia sort of framework 
for looking at regional issues. Do not forget that Iran does 
support Sunni jihadist groups. They are not strictly acting as 
sort of a sectarian Shia power but often acting in a quite 
cynical way to support groups like the Taliban, Islamic Jihad, 
Hamas, and so forth.
    The Chairman. Very good.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Chairman, just for fun, I actually looked back earlier 
today on the hearings that this committee did in the same month 
in the first year of President Obama's presidency. And this is 
apropos of nothing, but just to tell you how as many things 
change, lots of things stay the same. So our hearings that 
month were U.S. strategy regarding Iran, prospects for 
engagement with Russia, more effective strategy for 
counterterrorism, return and resettlement of displaced Iraqis. 
Those could be the titles of hearings again, maybe under 
different circumstances.
    But a reminder that as the people inside the administration 
change, it seems that the problems confronting this country and 
our friends do not. It is interesting, 8 years later.
    Thank you for being here, both of you.
    Let me ask Senator Paul's question in just a slightly 
different way, because he and I, and I think a lot of members 
of this committee, are very concerned about the lack of 
questions that are asked, in general, by this Congress about 
the U.S.-Saudi relationship and the flow of Saudi dollars not 
directly to the Sunni extremist groups but to the version of 
Islam that forms the building blocks of Sunni extremism.
    So what is the bigger threat to the United States, Sunni 
extremism or Shia-based extremism?
    Ambassador Indyk. I think they are both a threat. They pose 
different kinds of threats.
    The Shia extremism, I think Senator Paul is right. We are 
talking there about the Iranian Government, which is seeking to 
export its revolution and seeking to promote its hegemonic 
ambitions as a regional power. So the combination of those 
circumstances makes it particularly deadly and quite effective.
    The Sunni extremism that we see manifest itself in some 
state support for but basically Islamist movements, the extreme 
nature especially in ISIS and Al Qaeda and so on, they 
certainly grew out of an extremist, intolerant form of Wahhabi 
Islam. And if you want to trace back the origins of this, we 
can see it in the two events that happened in the late 1970s, 
which was the Iranian revolution on the one side and the 
takeover of the mosque in Mecca on the other side.
    And as a result of that, both of them started to export 
their extremist forms of----
    Senator Murphy. I agree, respectfully, when you think about 
the world. But, I mean, every attack against the United States 
thus far has been by Sunni-based extremist groups, at least 
when we are talking about----
    Ambassador Indyk. Attacks against the Continental United 
States.
    Senator Murphy.--the Continental United States.
    Ambassador Indyk. Not against Americans and not against 
American soldiers.
    Senator Murphy. Right.
    Ambassador Indyk. You know, the Iranians and certainly 
Hezbollah have undertaken terrorist attacks against Americans 
for some time.
    Senator Murphy. And inside of Iraq during the Iraq war, 
certainly.
    Ambassador Indyk. Saudi Arabia.
    Senator Murphy. Lebanon.
    Mr. Indyk, let me ask you another question. You made, I 
think, a very profound point, which is that while we absolutely 
have an interest in getting ISIS out of Syria, there is a 
question as to whether it is a vital U.S. national security 
interest as to who ultimately controls Syria.
    So let me ask you just to drill down on that a little bit 
more because there is a question now as to whether we have 500, 
1,000, 2,000, troops there. Already there are reports that U.S. 
troops are not just getting ready for retaking Raqqa but are 
actually sitting in between different factions that may be 
interested in fighting each other for the ultimate control of 
the battlespace.
    So as we think about our military strategy there, how do we 
right-size that military strategy to make sure that, 
ultimately, we are not the arbiter of who controls Syria once 
ISIS is gone? Because I fear that we are going to sort of 
quietly make a military commitment that ultimately binds us to 
sort of hold territory and sort out the balance of power even 
after ISIS is gone. And I think you agree that that is, 
ultimately, an important question but not necessarily one that 
should cost hundreds or thousands of U.S. lives.
    Ambassador Indyk. Certainly not the one that would cost 
large casualties for Americans. I agree with you. I think that 
our approach needs to be to provide what is necessary on the 
ground to ensure the defeat of ISIS and then to make sure that 
what comes in the wake of that defeat is a post-conflict 
reconstruction effort that is led by the people who live there.
    And there needs to be, I think, a very specific focus on 
building up the capacities for governance of the people who 
live in those areas. And because it is such a mosaic, we have 
to be very, very careful about how to do that.
    But it is their business; it is not ours. We should support 
them. There is, I think, an international coalition that would 
be willing to help out in that process. But it really needs to 
be one in which we are supporting it, not in there taking 
control of those areas.
    The Chairman. Thank you, sir.
    Senator Rubio?
    Senator Rubio. Thank you.
    Thank you both for being here.
    We talked about Iran. I want to start with some key 
assumptions to allow us to kind of analyze the region. I do not 
think either one of you would disagree with this assessment. In 
fact, I think, in your written statements you both alluded to 
this, the three things that kind of drive Iranian decision-
making across the spectrum, from so-called moderates all the 
way to the clerical folks.
    Number one is sort of a hegemonic view of the region 
largely tied to, my understanding is, their view of Persian 
culture and how ancient it is in comparison to, for example, 
the Gulf kingdoms and the like, which they view as kind of 
newer, inferior cultures in their mind. They certainly have 
great pride in--and by the way, that is not new to this regime. 
That was also part of the thinking of the shah who was secular, 
right?
    The second is they view themselves as protectors of Shia 
minorities throughout the region. So in addition to involving 
themselves in some of these conflicts, they view themselves as 
the protectors of these minority groups in different parts or 
in some cases majority groups who are not in majority power in 
some places.
    And the third is this sort of anti-Western, anti-U.S. view 
that Western interference in the region has imposed all these 
sorts of Western institutions, and that is how they view 
Israel, as a Western creation, but also the U.S. military 
presence.
    Number one, do you both agree with that assessment? And 
number two, would you agree that those are widely held 
positions throughout the political spectrum in Iran? They may 
debate how to pursue this engagement with the United States, 
but what I just described is widely held across the political 
spectrum in Iran?
    Mr. Singh. Yes, Senator. I would agree.
    I think when it comes to the protector of Shia, it is 
probably more complicated in the sense that, as I said, it is a 
cynical regime that does not hesitate to support Sunni jihadist 
groups, which are quite anti-Shia, and also the supreme leader 
of Iran likes to style himself as leader of all Muslims.
    But I think that it is roughly true, what you said.
    Senator Rubio. And by the way, working with the Sunni 
groups in the region for geopolitical purposes or as leverage 
on the United States, or what have you, is true, but if there 
is a Shia group somewhere in some country, Iran is always 
viewed, at least the supreme leader, as the protector of that 
group or at least has an obligation to move in.
    Here is why I asked you that. Embedded in all of this is 
this conversation about what Iran is going to look like 20 
years from now, so we have had successive Presidents now reach 
out with the hope of somehow strengthening the hands of what we 
term moderates at the expense of the clerics who, by and large, 
my understanding of the power of the supreme leader is 
basically the same as a monarchy that has almost entire power 
that delegates down to some of the elected branches some day-
to-day control. But in the end, the supreme leader is the 
ultimate authority on how much space they have, and that 
includes any upcoming elections.
    So I guess my point is, as you look now to the future, 
knowing what you both know about Iran, what hope is there, 
whether it is a change in a new supreme leader, which I think 
many people anticipate will happen here fairly soon for one 
reason or another and/or through elections, what hope is there 
of a leadership in Iran, based on what we know about these 
assumptions, that moves them a little bit more in the direction 
that will, indeed, allow them to perhaps reconsider some of the 
decisions they are making in the region? Or are we really 
looking at an intractable situation in the foreseeable future 
that, no matter who comes to power, both as the next supreme 
leader and/or President, we may call them moderates because of 
their approach on some of these issues, maybe a little bit less 
conflicted, but, by and large, you are dealing with people that 
believe Iran has a right to be the predominant power in the 
region because of their history and Persian culture, who views 
it their obligation to have to engage in the protection of 
Shia, and who continue to hold this view that this sort of 
Western presence in the region has undermined the region and, 
in many ways, redefined it?
    In essence, what hope is there of a transition to something 
a little different for the foreseeable future?
    Ambassador Indyk. We have been hoping for that transition 
for the last 40 years, and what we have seen is that, on 
occasion, a more moderate leader will be elected as President. 
We had it in the case of President Khatami. We had it in the 
case of President Rouhani, compared to his predecessor.
    But what we do not see is change in the fundamental 
attitudes of the supreme leader, who, I agree with you, has 
real overriding control, and the institutions which he commands 
and is able to use, whether it is Basij or the Iranian 
Revolutionary Guard Corps or the MOAS, to advance these various 
ambitions that are both hegemonic and revolutionary.
    And so, therefore, the big question is, what will the next 
week supreme leader be like, and whether, after perhaps 5 
decades, we will see some thawing of the inspirations that are 
fueling these problematic behaviors. But that is an unknowable 
situation.
    I think that we need to continue to test the proposition by 
holding out the potential for Iran to take up its place as a 
regional power but one that does not threaten its neighbors and 
seek to destabilize them, and does not seek to export its 
revolution to Shia minorities that creates an instability in 
these neighboring countries.
    And if they are willing to engage in a constructive way, we 
should be willing to respond. We need to hold that out for 
them. We also need to avoid hoping that somehow it is going to 
happen. We will know it when we see it.
    Mr. Singh. I would agree with that. I would say that those 
we consider hardliners and those we consider moderates in Iran, 
like President Rouhani, they are all committed to the survival 
of the regime. And anti-Americanism is a pillar, an ideological 
pillar, of the regime.
    So you may have moderates like Rouhani and Zarif who are 
more pragmatic when it comes to engagement with the West, 
especially economic engagement, but I think there is only so 
far they are willing to go. Of course, even when they go that 
far, they are accused of being antirevolutionary, as we have 
seen in the last few weeks, by the more hardline forces.
    I do not think that reflects the people of Iran. I think 
the people of Iran are not necessarily wedded to those ideas, 
and I would like to see us engage more with them. And I think 
that even in, say, a post-regime situation, it is easy to 
envision that you could have, say, military elements and so 
forth who still see the United States as an obstacle to, say, 
hegemony for Iran in the region and are not eager to work with 
us or really to have any dealings with us, or see us as an 
enemy.
    The Chairman. Thank you.
    Very good.
    Senator Menendez?
    Senator Menendez. I want to thank you, Mr. Chairman, thanks 
for holding an important hearing, and both of you for your 
insights for the committee.
    Let me say, this weekend marks 2 years since the JCPOA was 
announced in terms of its outline. And in those 2 years, 
outside of the nuclear activity, I think little has changed in 
Iran's historical strategic objectives and objectives 
throughout the region, and we can trace that from since the 
early 2000s where Iran has been testing the resolve of the 
international community's arms control protocols by testing 
ballistic missiles, tests that went on in October and November 
2015, tests that were followed in March 2016, January of this 
year, all in violation of various U.N. Security Council 
resolutions.
    In January of this year, the U.N. itself declared that Iran 
had participated in arms transactions that likely violated the 
arms embargo that is still in place.
    More broadly, Iran has ramped up its support for terrorist 
networks throughout the Middle East. It is building on a multi-
decade strategy to exert more influence around the Middle East. 
In addition to its high-profile stalwart allies like Hezbollah 
and Hamas, it has increased its support for irregular Shia 
militias in Bahrain, Afghanistan, Iraq, Kuwait, and elsewhere.
    So I understand the aspirational desires of hoping that 
Iran can come into an understanding with its leadership of the 
international order, but so far, I have not seen it. And if 
anything, I have seen it demonstrably go the other way.
    And I am sure we all do not need to be reminded that Assad 
would be much weaker were it not for the support of his friends 
both in Moscow and in Tehran.
    So that is why I appreciate Senator Corker, Senator Cardin, 
and my efforts, along with others, in having legislation that, 
regardless of whether you voted for or against the JCPOA, there 
should be efforts to try to get Iran to recognize that there 
are consequences for violating the international order and to 
try to bring it back into the international order.
    But if you can do all of these things and not have any real 
consequence, then you will continue to do them, especially if 
you believe that it ultimately pursues your interests.
    I always want to, in a hearing on Iran, just mention 
American citizens detained in Iran, a number that regrettably 
has increased in the past. I particularly would like to point 
out Robert Levinson, some of whose children and a grandchild he 
has never met are my constituents. He has been missing now for 
more than 10 years. And I want to urge the administration and 
the Government of Iran to take all steps necessary to bring him 
home. We are going to continue to cast a spotlight on him.
    But I want to go to the questions, while we seek to be 
aspirational, how do we--I believe that aspiration is a good 
thing, but you also sometimes have to put some hard work behind 
it to make it happen. So I notice with interest--and sometimes 
I feel like I listen to some testimony, I am not saying any of 
yours, but elsewhere, about this equivalency or some type of 
moral equivalency.
    Why does Iran need to be so engaged with Hezbollah? I 
noticed in your written remarks that you had said that Iran has 
embarked on a distinct strategic shift from insurgency to 
counterinsurgency, from maintaining plausible deniability to 
touting its role by acknowledging its support for Hezbollah, 
publishing details of funerals held for Shiite militants, IRGC 
fighters, and it goes on and on.
    Why is that? And why is it that we should not look at that 
with some degree of real concern?
    Mr. Singh. Thank you, Senator. I think we should look at it 
with a degree of--not just a degree of concern but great 
concern.
    You know, as I said, initially, Iran sought to maintain its 
plausible deniability. Hezbollah would deny that it got its 
funding from Iran or its weapons from Iran, and we have seen 
that shift. I think, frankly, it is because they could no 
longer maintain--it was no longer plausible, let's say, that 
deniability. They could no longer maintain that because you had 
so many Hezbollah fighters in Syria, Hezbollah fighters also in 
Iraq. You had Iranian officers dying in Syria and Iraq. And, of 
course, they would have funerals, which were not secret.
    So I think they tried to shift the narrative. You know, it 
is undeniable that it is hard to connect fighting against Sunni 
Arabs in Syria to Hezbollah's purported mission of 
``resistance'' to Israel. But that is exactly what Iran and 
Hezbollah do, they try to connect what they are doing in Syria 
and Iraq to this sort of anti-American, anti-Israeli mission, 
and they tout it relentlessly.
    I do not think that many people buy this, frankly, but it 
has been a real marked shift in the Iranian narrative.
    Senator Menendez. What is our best strategy to at least try 
to curtail their engagement and their support for Hezbollah and 
other entities that are destabilizing the region?
    Ambassador Indyk. I would say, Senator, that the first 
thing we have to be very aware of and make sure that it does 
not happen is that Hezbollah moves to the south in Syria and 
into the Golan Heights and sets up a front across southern 
Lebanon and the Golan Heights, which is adjacent to it.
    They are trying to do that now with Iranian support. They 
have been probing in that direction. The Israelis have made it 
clear it is a redline for them and will do what they can to 
prevent it.
    But, in other words, we need to put a break on what they 
are doing first before we can somehow start to dismantle it. 
Hezbollah has taken heavy casualties, the heaviest of all in 
terms of troops on the ground in Syria. But in the meantime, 
they still have been building their capacity in Lebanon. I 
think the latest Israeli estimate is they have 140,000 rockets 
that can be rained on Israeli cities.
    So what we are talking about is very well trained now, 
battle-hardened, highly capable, and very well-armed, and in 
control of the Lebanese Government, and nobody makes any 
illusions about that anymore. The Lebanese Government says that 
Hezbollah is their army now. They did not used to say that 
either.
    So, progressively, they have grown a lot stronger, and the 
challenge is, therefore, a lot greater. We cannot easily disarm 
them. We can prevent them, I think--we would have to work with 
the Russians as well--from moving south into the Golan.
    But in terms of what you do with the broader challenge that 
Hezbollah confronts us with, in Lebanon, in particular, we have 
very little to work with there anymore. And I do not have a 
good idea of how we can take them apart in Lebanon. What we can 
do is, over time, try to limit their and Iran's position in 
Syria. And if we can do that, then, over time, we may be able 
to impact their position in Lebanon.
    The Chairman. Thank you.
    I know Senator Rubio has another question. I have to run 
and do something else. I am going to say a few things and then 
turn it to him and Senator Cardin.
    But thank you for being here. People will have additional 
questions, I know, so we will close the record at the close of 
business on Thursday, if you could respond fairly quickly to 
those questions.
    The Chairman. We appreciate very much you being here.
    I will probably write one relative to supporting democracy 
movements within Iran itself, and how we should look at those 
things. I know there was a tremendously missed opportunity back 
in 2009. I understand there were negotiations underway, but it 
seems there is more that we could be doing there also.
    But again, thank you both for being here.
    With that, Chairman Rubio.
    Senator Rubio. [Presiding.] Just two quick points. I would 
encourage you both, as you work on your scholarship and as you 
talk to others, I think two immediate flashpoints we are going 
to see, and I think you would both agree, are upon ISIS's 
defeat in Iraq is what the Shia militias do vis-a-vis the 
United States, and whether they begin to immediately turn to 
attack us, because I think Iran should be held responsible if 
they do.
    You talked about Hezbollah. I just returned from the 
region. There is widespread expectation that war between Israel 
and Hezbollah is inevitable. And I would say there are elements 
in the Lebanese Government that are not pro-Hezbollah. The 
Prime Minister is an example. His father was assassinated by 
Hezbollah.
    And the argument that they make, and I am just reporting 
back what they say, is anything we can do to strengthen the 
Lebanese army and the Lebanese armed forces undermines 
Hezbollah's ability in the country. That is a broader topic.
    Here is the one I wanted to ask you both about, and it is 
related to Iran but it is a little broader.
    In Bahrain, we have, I think, a 70 percent Shia population 
but a Sunni governing class. I really felt, and perhaps I was 
wrong, but I really felt a few years ago there was an 
opportunity, because at the time, many of the Shia groups in 
Bahrain were not asking for the overthrow of the King or the 
elimination of the monarchy. They were just asking for more 
political representation. And I really believe that had a space 
been created at that moment, that that provided a unique 
opportunity. And perhaps I was wrong about that.
    That did not happen, and I think that actually opened the 
door for more Iranian influence because, since all the other 
doors were closed, that was the only avenue that was there.
    As far as U.S. policy in the region, when things like that 
emerge in the future, my argument to Bahrain was they are an 
important ally, but the situation they face is unsustainable in 
the long-term and the better thing to do is to create an 
internal accommodation over time that allows the Shia to be 
more represented in government and, therefore, less susceptible 
to Iranian argument.
    I think that is a part of our strategy toward Iran and the 
region as well. It is not to allow these aggrieved parties to 
have no other option but Iran.
    I do not know if either one of you have done any extensive 
amount of work on the Bahraini question in terms of the broader 
policy with regards to Iran.
    Mr. Singh. Senator, I would agree with that. I think that 
it is good, friendly advice to our allies that they look to 
sort of embrace their own populations, that they look to be 
accountable to their populations as a way to defend against 
Iranian inroads.
    This is the same advice--I know you are interested in 
Russia and Eastern Europe, Senator--the same advice we give 
Eastern European governments, is make sure you are including 
those Russian minorities in your country, embracing them, 
treating them as full citizens, so that they do not become a 
potential vector for Russian influence in the country, make 
sure you are addressing issues like corruption and so forth, 
which are often, again, an open door for Russian influence and 
Russian leverage over the political process.
    And I think this is something that all of our allies, 
especially in the Gulf, need to pay attention to, that part of 
defending against Iran is ensuring that your own political and 
economic institutions are inclusive and resilient and 
accountable.
    On the question of Hezbollah and proxies, I could not agree 
with you more. I think we need to look not just at the existing 
proxies but where new ones may emerge because it is clearly 
part of Iran's broader strategy.
    Look at the Houthis. Maybe they are not exactly a proxy 
now, but will they be in the future? Might there be new proxies 
in Syria?
    And I do think we have tools to push back at them. In 
Lebanon, we do have a government to work with and allies that 
we can work with who I think, frankly, we have ignored for the 
past 8 years.
    We do have a U.N. Security Council resolution, 1701, that I 
worked on that I think also has been largely ignored.
    We have a Shia community in Lebanon which is not, I think, 
well-represented by Hezbollah but is often terrorized by 
Hezbollah because, you know, they like Shia as long as you 
listen to them, but if you do not, you are in trouble.
    And then, of course, we have the ability to publicize the 
fact that Hezbollah and these other Shia proxies, they are not 
resisting Israel. They are not resisting the United States. 
They are killing Muslims. They are killing Arabs. That is what 
they are actually doing on the ground. And I think we can be 
absolutely clear about that.
    Ambassador Indyk. I think you are absolutely right about 
Bahrain, but I imagine that, after they listen to you, they 
turn around and say that is just another naive American 
advancing democratic ideas, but we know better.
    I think there is kind of an attitude in the region that has 
become quite scornful of the notion of what is referred to as 
democracy or the freedom agenda or so on. I think there has 
been a real setback in that regard, and it is difficult to make 
the case, and it is especially difficult to make the case when 
you have the Iranians out there looking to exploit these Shia 
populations, because then you have a bad guy that you can 
always point to, to excuse Iran's actions or lack of actions.
    So I think in the current circumstances, it is a very hard 
argument to make. I think Bahrain would have been far better 
off if they followed your advice, but they have consistently 
gone the other way.
    And then, of course, there is the influence of big brother 
next door, Saudi Arabia, because it too sees the Iranians as an 
encircling threat. To give them their credit, I think the 
deputy crown prince deserves a lot of credit for this Vision 
2030 effort to transform Saudi society even while all this is 
going on. It is something we need to get behind.
    But I think we just need to recognize that, in the current 
environment, our ability to actually change their minds on 
these things is going to be very difficult to do. It does not 
mean we should not do it.
    Senator Rubio. Sure. Just to be clear, I am not naive 
enough to believe that Bahrain is going to look like New 
Zealand any time in the near future in terms of their politics 
internally. I am saying that, for example, if you look at the 
Jordanians who have slowly but surely begun to make steps in 
the right direction--and it is a balance. If you move too 
quickly, it could unravel. If you move too slowly, it could 
unravel.
    But I do think, if you do not give 70 percent of your 
population the belief that they have a role to play in your 
politics--and the reforms that were being asked for 3 or 4 
years ago were not outrageous. If you do not accommodate for 
that, that pressure builds and it provides the opportunity for 
Iran to take advantage of it. And that was my argument at the 
time.
    So, Senator Cardin?
    Senator Cardin. I just really want to thank our two 
witnesses. I found this very, very beneficial. I am not 
surprised. We have a great deal of respect for your knowledge 
in this area, and we will be calling upon you.
    So the hearing was on Iran, and we talked about Lebanon, we 
have talked about Iraq, we talked about Saudis, we talked about 
UAE, we talked about Israel, we talked about Russia. There is 
no question that Iran is engaged in a lot of the geopolitics of 
the entire region and, of course, has an impact directly on our 
national security.
    So this is a continuing battle. There is no simple solution 
here. There is no easy path forward. And we have to be mindful 
as we move in one direction. As I think, Ambassador Indyk, you 
pointed out, there is an opportunity in a different direction 
for problems to arise, and I think we have to evaluate that 
very carefully.
    One thing is certain to me. We do need a clear U.S. policy, 
and it must be one of engagement in that region and it has to 
be done in a way that puts U.S. security interests--but does 
not drag us into conflicts where a military solution is not an 
answer.
    So I appreciate very much both of your testimonies, and we 
intend to rely upon you as we move forward.
    Senator Rubio. Thank you.
    And I want to thank both of you for being here.
    And with that, the meeting is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
